Who We Are
The Office of the Inspector General (OIG) is responsible for meeting the statutory mission of promoting
economy, efficiency, and effectiveness in the administration of Social Security Administration (SSA)
programs and operations; and preventing and detecting fraud, waste, abuse, and mismanagement in
such programs and operations. To accomplish this mission, we conduct and supervise a comprehensive
program of audits, evaluations, and investigations. We also search for and report systemic weaknesses
in SSA programs and operations, and make recommendations for needed improvements and corrective
actions.

What We Do
We strive for continual improvement in SSA’s programs, operations, and management by proactively
seeking new ways to prevent and detect fraud, waste, and abuse. We commit to integrity and excellence
by supporting an environment that provides a valuable public service while encouraging employee
development and retention, and fostering diversity and innovation.

Reach Us

             @TheSSAOIG

             /OIGSSA

             /TheSSAOIG

             http://oig.ssa.gov


Report Fraud
Reporting is easy, safe, and secure. You can reach us by internet, mail, phone, or fax.

Internet:         http://oig.ssa.gov/report

U.S. Mail:        Social Security Fraud Hotline
                  P.O. Box 17785
                  Baltimore, Maryland 21235

FAX: 	            (410) 597-0118

Telephone:        (800) 269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
TTY: 		           (866) 501-2101 for the deaf or hard of hearing


Feedback
After reading our Semiannual Report to Congress, we encourage you to take a brief, anonymous survey
to let us know how we're doing. The survey is available on our website listed above. We appreciate any
feedback that can help us improve our publication.
Semiannual Report to Congress

                                          TABLE OF CONTENTS


    A Message from the Inspector General................................................................................ 3
    Key Accomplishments........................................................................................................... 4
    Executive Summary................................................................................................................ 4
    Introduction to Our Organization.......................................................................................... 6
    Management Challenges........................................................................................................ 8
    Audit....................................................................................................................................... 10
      Significant Audit Activities.................................................................................................... 10
    Investigations........................................................................................................................ 12
      Investigative Results............................................................................................................ 12
      Significant Investigative Activities........................................................................................ 15
      Cooperative Disability Investigations................................................................................... 20
    Legal...................................................................................................................................... 22
      Section 1140........................................................................................................................ 22
      Section 1129........................................................................................................................ 23
    Support.................................................................................................................................. 25
      Budget.................................................................................................................................. 25
      Human Resources............................................................................................................... 25
      Information Technology........................................................................................................ 25
      Allegation Management and Fugitive Enforcement............................................................. 26
      Outreach.............................................................................................................................. 26
      Appendices......................................................................................................................... 27
      Reporting Requirements...................................................................................................... 28
      Appendix A: Resolving Audit Recommendations................................................................. 29
      Appendix B: Reports Issued................................................................................................ 31
      Appendix C Reporting Requirements Under the Omnibus Consolidated
                         Appropriations Act of 1997............................................................................. 39
      Appendix D: Significant Management Decisions with which the Inspector General
                         Disagrees....................................................................................................... 41
      Appendix E: Collections from Investigations and Audits..................................................... 42
      Appendix F: Significant Monetary Recommendations from Prior Fiscal Years
                         for which Corrective Actions Have Not Been Completed ................................ 44
      Appendix F: Significant Monetary Recommendations from Prior Semiannual
                         Report to Congress for which Recent Corrective Actions Have Been
                         Made............................................................................................................... 48
      Appendix G: Significant Non-monetary Recommendations from Prior Fiscal
                         Years for which Corrective Actions Have Not Been Completed ...................... 50
      Appendix G: Significant Non-monetary Recommendations from Prior Semiannual
                         Report to Congress for which Recent Corrective Action Has Been Made...... 55
      Appendix H: Peer Reviews................................................................................................. 58
      Appendix I: Review of Legislation and Regulations........................................................... 59
    Glossary of Acronyms.......................................................................................................... 60




2                                                                                                      April 1, 2013 - September 30, 2013
                                                                           Semiannual Report to Congress

       A MESSAGE FROM THE INSPECTOR GENERAL

 In the early hours on August 21, 2013, OIG special agents, working with the FBI and local police,
 arrested 75 people in Puerto Rico as part of a far-reaching investigation
 into an alleged disability fraud conspiracy involving a former Social
 Security employee and medical providers, including physicians.
 This arrest operation was the culmination of some the most difficult,
 and best, investigative work ever conducted by this office—and its
 unqualified success has served as a timely reminder to me of not only
 how critical our mission is, but also how committed our employees are
 to achieving that mission.

 In the current fiscal climate, we remain as dedicated as ever to
 improving the integrity of Social Security’s programs by eliminating
 fraud and waste wherever we find it. However, we also recognize that
 we can—in fact, we must—do more with less.

 I believe the audit, investigative and legal achievements highlighted
 in this Semiannual Report to Congress, for the period April 1, 2013 –
 September 30, 2013, represent the best efforts of our employees to
 find ways to work more efficiently and innovatively and to provide an
 exceptional return on the taxpayer funds invested in our operations. For example:

   •   In “Payments to Individuals Whose Numident Record Contained a Death Entry,” our
       auditors found Social Security paid $31 million to more than 1,500 people believed to be
       deceased.

   •   An OIG investigation revealed a former SSA employee identified recently-deceased
       beneficiaries and stole more than $325,000 from their bank accounts. He was recently
       sentenced to five years and 10 months in prison.

   •   And the Puerto Rico operation and other cases prompted the establishment of a disability
       fraud initiative that will focus exclusively on “third-party facilitators.”

 I am very proud of these and numerous other accomplishments of this OIG during the past six months.
 Nevertheless, it is clear that sequestration has had a significant effect, as we have experienced a
 period of adjustment to our operations and our strategic planning. For example, we issued 94 audits
 in FY2013, compared to 110 in FY2012. Still, during this reporting period, we have demonstrated
 through high-profile investigations and audits that our work is of critical importance and highly valued
 by decision-makers in Congress and SSA. To meet the challenges ahead, we are planning and
 innovating to streamline operations, identify and reduce inefficiencies, and reassess our priorities in
 every aspect of our work.

 I invite you to read more about how we are doing that in the pages that follow; and I encourage
 you to comment on this report and our work by participating in our Semiannual Report to Congress
 feedback survey located online.
                                        Patrick P. O'Carroll, Jr.
                                          Inspector General




April 1, 2013 - September 30, 2013                                                                      3

                                          Back to Table of Contents
Semiannual Report to Congress


EXECUTIVE SUMMARY



                                  Key Accomplishments
                                  April 1, 2013-September 30, 2013

      Total Audit Reports Issued                                                              39
      Questioned Costs                                                              $146 Million
      Funds Put to Better Use                                                       $605 Million
      Total Allegations Received                                                        81,343
      Investigations Opened                                                              4,119
      Investigations Closed                                                              3,904
      Arrests                                                                              254
      Indictments/Informations                                                             590
      Criminal Convictions                                                                 612
      Civil/Civil Monetary Penalties                                                       193
      Cooperative Disability Investigations
      Program Results (4/1/2013-9/30/2013)
        Confirmed Fraud Cases                                                               2,068
        SSA Savings                                                                $170,417,122
        Non-SSA Savings                                                            $123,925,392



This report presents the significant activities of the SSA OIG from April 1, 2013 through September 30,
2013. The report details the achievements of the OIG’s offices of Audit, Investigations, Counsel, and
OIG's support components.


Audit
During this reporting period, OIG auditors issued 39 reports and made recommendations on a variety
of challenges facing SSA. Auditors also identified more than $146 million in questioned costs and more
than $605 million in Federal funds that could be put to better use.
Among their noteworthy reports completed during the reporting period, OIG auditors issued two more
reviews of the accuracy of death information in SSA’s Numident, the Agency's database of Social Security
number (SSN) holders. Auditors found controls over the recording of death information on the Numident
and in SSA’s payment records needed improvement. Specifically, thousands of deceased recipients’
deaths were not on the Numident, and therefore not included in the Death Master File. Auditors also
found beneficiaries paid for months or even years after SSA received notification they were deceased
because death information was recorded on the Numident, but not the beneficiary’s payment record.




4                                                                       April 1, 2013 - September 30, 2013

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
                                                                              Semiannual Report to Congress


Investigative
During this reporting period, we received more than 81,000 allegations from SSA employees, the
Congress, the public, law enforcement agencies, and other sources. OIG agents closed more than
3,900 criminal investigations, resulting in over 250 arrests, 590 indictments and informations, over 610
criminal convictions (including pretrial diversions), and over 190 civil judgments or civil monetary penalty
(CMP) assessments.
In one notable case, we investigated a Baltimore man who concealed his work and earnings from 1996
to 2009 while receiving disability benefits. From 2007 to 2010, he even worked for SSA as a benefit
authorizer. During the reporting period, a jury found the man guilty of Social Security fraud. He was
sentenced to two years in prison and ordered to pay more than $121,000 to SSA. The Agency terminated
his employment in 2010.
We are reporting over $257 million in investigative accomplishments, including over $54 million in SSA
recoveries, restitution, fines, settlements, and judgments; and over $202 million in projected savings
from investigations resulting in the suspension or termination of benefits. In addition, we participated in
multi-agency investigations that resulted in over $38 million in savings, restitution, and recoveries for
other agencies.
The Cooperative Disability Investigations (CDI) program continues to be one of SSA and OIG’s most
successful initiatives, ensuring the integrity of SSA’s disability programs. CDI efforts during this reporting
period resulted in more than $170 million in projected savings to SSA programs.


Legal
During the reporting period, our attorneys initiated 247 CMP actions against individuals who made
false statements, representations, or omissions to obtain or retain Social Security benefits (violations
of Section 1129 of the Social Security Act). OIG attorneys imposed almost 10 million in penalties and
assessments through the CMP program. We also pursued actions to protect the public from fraudulent
schemes that make use of the SSA’s well-known name and good reputation (violations of Section 1140).
During this reporting period, we achieved voluntary compliance in 38 Section 1140 cases and deterred
future violations through aggressive outreach and enforcement efforts.


Outreach
During the reporting period, Inspector General O’Carroll testified before the House Subcommittee
on Social Security on challenges facing the next Commissioner of Social Security and the disability
fraud conspiracy in Puerto Rico; before the House Subcommittee on National Security and the House
Subcommittee on Economic Growth, Job Creation and Regulatory Affairs on ammunition procurement;
before the Senate Committee on Homeland Security and Governmental Affairs on federal payment
accuracy; and before the Senate Special Committee on Aging on the direct deposit of Social Security
payments.
The Inspector General also spoke at the National Association of Disability Examiners (NADE) National
Training Conference in Oklahoma City, Oklahoma.




April 1, 2013 - September 30, 2013                                                                          5

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
     Semiannual Report to Congress


     INTRODUCTION TO OUR ORGANIZATION
     SSA OIG comprises the Immediate Office of the Inspector General and five major components: the
     Offices of Audit, Counsel, External Relations, Investigations, and Technology and Resource Management.



                                                               Patrick P. O'Carroll, Jr.
                                                                 Inspector General




                                                                 Gale Stallworth Stone
                                                                Deputy Inspector General




                                                                                                              Kristin Klima
                                Amy M. Smith                                                                Congressional and
                                 Executive                                                                  Intragovernmental
                                  Officer                                                                         Liaison




                                                                                                                                  Michael D. Robinson
   Steven L. Schaeffer                B. Chad Bungard               Jonathan L. Lasher             Richard A. Rohde            Assistant Inspector General
Assistant Inspector General         Counsel to the Inspector     Assistant Inspector General   Assistant Inspector General    for Technology and Resource
          for Audit                        General                 for External Relations           for Investigations                Management




    Rona M. Lawson                                                   Tracy B. Lynge                  Kelly Bloyer                    Gary Czarnecki
Deputy Assistant Inspector            Tristan B. L. Siegel       Deputy Assistant Inspector    Deputy Assistant Inspector        Acting Deputy Assistant
General for Audit - Program          Deputy Counsel to the         General for External        General for Investigations         Inspector General for
 Audits and Evaluations                Inspector General                 Relations                - Intelligence and            Technology and Resource
                                                                                                    Administration                    Management



    Kimberly A. Byrd                                                                              Steven W. Mason
Deputy Assistant Inspector                                                                     Deputy Assistant Inspector
General for Audit - Financial                                                                  General for Investigations -
 Systems and Operations                                                                            Field Operations
          Audits




     Immediate Office of the Inspector General
     The Immediate Office of the Inspector General (IO) assists the Inspector General with the full range of
     his responsibilities. IO staff also coordinates with SSA, congressional committees, the Social Security
     Advisory Board, and the Council of Inspectors General on Integrity and Efficiency (CIGIE). IO also
     includes the Office of Quality Assurance and Professional Responsibility (OQAPR), which reviews OIG
     component offices to ensure compliance with Federal laws and regulations, Agency policies, and relevant
     professional standards; and conducts investigations into allegations of misconduct by OIG employees.

     6                                                                                                 April 1, 2013 - September 30, 2013

                                                               BackBack
                                                                    to Table
                                                                        to Tableof Contents
                                                                                of Contents
                                                                          Semiannual Report to Congress


Office of Investigations
The Office of Investigations (OI) conducts investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants, beneficiaries,
contractors, and third parties, as well as by SSA employees. This office serves as the OIG’s liaison to
the Department of Justice (DOJ) on all investigative matters. OI also conducts joint investigations with
other law enforcement agencies, and shares responsibility with the Department of Homeland Security’s
(DHS) Federal Protective Service (FPS) for investigating threats or violence against SSA employees
and facilities.


Office of Audit
The Office of Audit (OA) conducts financial and performance audits of SSA programs and operations, and
makes recommendations to ensure that program goals are achieved effectively and efficiently. Financial
audits determine whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of
SSA’s programs and operations. OA also conducts short-term management and program evaluations
on issues of concern to SSA, the Congress, and the general public.


Office of External Relations
The Office of External Relations (OER) disseminates information about the OIG’s work to Congress,
the media, and the public. OER prepares presentations for OIG executives, publishes informational
materials, prepares the Semiannual Report to Congress, and represents the OIG in the news media.
OER also maintains the OIG presence on the Internet, and supports OIG components with respect to
external communications.


Office of the Counsel to the Inspector General
The Office of the Counsel to the Inspector General (OCIG) provides independent legal advice and
counsel to the Inspector General on a wide range of issues, including statutes, regulations, legislation,
and policy directives. OCIG also administers the CMP program, and advises the Inspector General on
investigative procedures and techniques, as well as on the legal implications of audit and investigative
activities.


Office of Technology and Resource Management
The Office of Technology and Resource Management (OTRM) provides administrative support to
the Inspector General and OIG components. OTRM formulates and executes the OIG budget, and is
responsible for strategic planning, performance reporting, and facility and property management. OTRM
manages OIG human resources and develops administrative policies and procedures. OTRM also
maintains hardware, software, and telecommunications networks to support the OIG’s mission. Finally,
OTRM manages the OIG’s Allegation Management and Fugitive Enforcement Division.




April 1, 2013 - September 30, 2013                                                                     7

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
Semiannual Report to Congress


MANAGEMENT CHALLENGES
OIG annually identifies the most significant management issues facing SSA based on legislative
mandates and its audit and investigative work. A summary of each issue is below:

Strengthen Strategic and Tactical Planning
While near-term planning is important, SSA needs plans that address long-term challenges, including
a rising workload, a decrease in experienced staff, overly complex program policies, and a rising need
to provide more services electronically. As workloads rise, a greater proportion of SSA’s workforce will
also become eligible to retire. At a time when SSA needs to plan to do more with less, SSA lacks long-
term plans in a number of critical areas. In its report, The Social Security Administration: A Vision of
the Future, the Social Security Advisory Board recommended that SSA take multiple steps to ensure
success in 2020, including rethinking its service delivery strategy, performing a comprehensive review
of program policy to reduce complexity, establishing a Systems Modernization Plan, and developing a
Human Capital Plan.

Improve Customer Service
Many factors challenge SSA’s ability to provide quality customer service to the public, including budget
constraints, growing workloads, changing customer expectations, an aging, retirement-eligible agency
workforce, and shifting demographics. Each day, almost 182,000 people visit SSA field offices. SSA
serves over 60 million people per year over the national 800 telephone number and an additional
53 million phones calls that are handled by the field offices , but in FY 2012, SSA lost over 1,600
employees. Consequently, the Agency projected its national 800 number customer service would
deteriorate significantly. The projected retirement of its employees continues to present a challenge to
SSA’s customer service capability. In addition, technology is rapidly changing and the public expects to
complete more business online.

Improve the Timeliness and Quality of the Disability Process
SSA needs to address millions of initial disability and reconsideration claims, and it also continues
to have a backlog of continuing disability reviews (CDR). Over the past 2 years, SSA has received a
large influx of initial and reconsideration claims. We have an ongoing audit to look at SSA’s progress in
reducing the initial claims backlog. SSA also has a backlog of 1.2 million medical CDRs. Medical CDRs
are effective in reducing overpayments in the DI program, and therefore, are a critical workload. We
have continued working with SSA to address the integrity of the disability programs through CDI that
obtain evidence to resolve questions of fraud in SSA’s disability claims.


Improve Transparency and Accountability
SSA faces a number of challenges in ensuring accountability, including concerns over its internal controls,
systems security, and administrative cost allocations. SSA continues to lack a full set of performance
indicators that measure whether the Agency is meeting all its strategic goals. Moreover, we believe SSA
can bring greater accountability to its administrative cost allocation. Finally, in the FY 2012 Independent
Auditor’s Report, the auditors cited a material weakness in controls over information security and a
significant deficiency related to monitoring activities and the overall controll environment.




8                                                                        April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                            Semiannual Report to Congress


Invest in Information Technology Infrastructure to Support Current and Future Workloads
SSA will not be able to manage current and future workloads without the proper IT infrastructure. The
Agency uses a variety of technologies, including telephone service, Internet services and tools, and
videoconferencing, to deliver service to its customers. However, SSA must find ways to expand easy-
to-use and secure electronic services for its customers. We have concerns regarding the Agency’s
IT physical infrastructure; logical access controls and security of sensitive information; development
of electronic services; and strategic IT planning. Our prior audit work in this area found that SSA’s IT
planning process only spans 2 years.

Reduce Improper Payments and Increase Overpayment Recoveries
SSA must be a responsible steward of the funds entrusted to its care and minimize the risk of making
improper payments. SSA strives to balance its service commitments to the public with its stewardship
responsibilities. Given the size and complexity of the programs, some payment errors will occur, but
due to the large overall dollars involved in SSA’s payments, even the slightest error can result in millions
of dollars in over- or underpayments. Once SSA determines an individual has been overpaid, it must
recover any overpayment. SSA uses a variety of methods to collect the debt related to overpayments,
but SSA reported that the percent of debt collected decreased from FY 2011 to FY 2012.

Reduce the Hearings Backlog and Prevent its Recurrence
SSA has directed increased resources to improve hearing timeliness and process more hearings.
While timeliness and ALJ productivity have improved, an increased number of applicants has led to an
increase in the hearings backlog. Expanded use of video teleconferencing, the relocation of unused
equipment and expanded use of desktop video units could increase the available capacity of video
hearings. Also, various obstacles impact the hearing office staff’s ability to timely schedule hearings. 
Finally, Congress continues to express concerns about ALJ adherence to the Agency’s policies and
procedures while demonstrating good stewardship of taxpayer dollars.

Strengthen the Integrity and Protection of the Social Security Number
Protecting the SSN and properly posting the wages reported under SSNs are critical to ensuring that
SSN integrity and eligible individuals receive the full benefits due to them. We remain concerned about
SSN misuse by noncitizens who are not authorized to work in the United States, as well as the misuse of
children’s SSNs for work and identity theft purposes. Accuracy in recording workers’ earnings is critical
because future benefit payments are calculated based on the earnings an individual accumulates over
his/her lifetime. While SSA cannot control all the factors associated with erroneous wage reports, we
believe there are ways it could improve wage reporting.




April 1, 2013 - September 30, 2013                                                                        9

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
Semiannual Report to Congress


AUDIT

Significant Audit Activities
Using Bank Data to Identify SSI Recipients with Potential Overpayments
We analyzed bank statements from the same random sample of 250 foreign-born SSI recipients selected
for a prior audit, Supplemental Security Income Recipients with Automated Teller Machine Withdrawals
Outside the United States. Although place of birth was not relevant to the current audit, using the
same records represented a considerable cost savings. Because we had to subpoena records, we only
obtained information from one bank for this review. We chose the most commonly used bank for SSI
recipients with direct deposit.

Our audit estimated that SSA overpaid approximately $55 million to 18,541 SSI recipients because it
was not informed of changes to these individuals’ financial situations. If our results using sample data
associated with one bank represent all banks, SSA potentially would have overpaid about $225 million
to 76,168 SSI recipients.

Our report recommended that SSA continue developing additional methods to identify unreported
income (earned and unearned) instead of relying primarily on SSI recipients to self-report their personal
financial situations.


Payments to Individuals Whose Numident Record Contained a Death Entry
SSA records death information on the Numident, the Agency’s master database of SSN holders. It
creates this by matching death information from Federal, State, and local agencies against its own
electronic payment records. During Calendar Year 2011, SSA terminated benefit payments to more
than 2.1 million deceased individuals. Prior audit work has indicated the possibility that some death
entries on the Numident were erroneous, and beneficiaries were actually alive.

Our review determined that although 1,546 of 2,475 beneficiaries had death certificate information on
the Numident, they still received monthly SSA payments.We discovered that system interfaces designed
to prevent or detect payments to deceased beneficiaries failed in these instances. Our report estimated
that SSA improperly paid the 1,546 beneficiaries about $31 million and will make about $15 million in
additional improper payments over the next 12 months if the discrepancies are not corrected.

Our report recommended that SSA: (1) verify the beneficiaries’ current status and take appropriate
action to remove erroneous death entries or terminate benefits; (2) evaluate the feasibility of a systems
enhancement that would ensure death information on beneficiaries’ primary payment records are
propagated onto their auxiliary payment records; and (3) implement a compensating control, until an
effective systems enhancement is implemented, to periodically identify and review instances where
individuals with a death entry on the Numident continue to receive payments. SSA agreed with our
recommendations.




10                                                                      April 1, 2013 - September 30, 2013

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
                                                                            Semiannual Report to Congress


Effects of the Senior Attorney Adjudicator Program on Hearing Workloads
SSA implemented the Senior Attorney Adjudicator (SAA) Program in November 2007 to issue high
quality, fully favorable on-the-record (OTR) decisions while maintaining the current level of administrative
law judge (ALJ) decision writing support.

Our audit found that the SAA Program has contributed to both an increase in adjudicative capacity
and improved average processing time of hearings. However, the number of SAA OTRs peaked in FY
2010, and the decline continued through the first 5 months of FY 2013. Overall, SAA and ALJ OTRs
have been decreasing since FY 2008, consistent with the Office of Disability Adjudication and Review
management’s predictions. In addition, in an FY 2012 quality review, the Office of Quality Performance
noticed a significant drop in its decisional agreement rate on SAA OTRs, though the Agency did not
have sufficient data to determine whether the issue was specific to SAAs or more broadly related to
OTRs. Also, hearing office managers were interested in additional training and greater duties for their
SAAs.

Our report recommended that SSA: (1) evaluate the benefits of conducting focused quality reviews on
ALJ and SAA OTR decisions using a consistent set of criteria so results are comparable; (2) ensure
additional training is available to SAAs in those areas identified in our report; (3) consider expanding
SAAs’ duties to assist hearing offices with case processing, such as adjudicating non-disability cases
and dismissals; and (4) align existing SAA positions with predicted workloads and related duties before
expanding the SAA corps. SSA agreed with the recommendations.


Employers Who Report Wages with Significant Errors in the Employee Name and Social Security
Number
Because SSA calculates future benefit payments based on the earnings an individual has accumulated
over his/her lifetime, it is critical that they accurately record those earnings. Although SSA continues
working with the Internal Revenue Service (IRS) and Department of Homeland Security (DHS) and
educates employers about the importance of accurate wage reporting, obstacles remain.

Our audit identified various types of reporting irregularities, such as invalid and unassigned SSNs
and SSNs that belonged to young children and deceased individuals. While we recognize there were
legitimate reasons why a worker’s name and SSN may not match SSA’s files, we believe the magnitude
of incorrect wage reporting may indicate SSN misuse. Our review found that for FYs 2007 through
2009, the 100 employers who had the most suspended wage items had submitted over 2.3 million
wage items, representing $15.7 billion in suspended earnings. The 100 employers who had the highest
percentage of suspended wage items submitted over 111,000 wage items, representing $409 million in
suspended earnings over the 3‑year period.

Our report recommended that SSA continue working with the IRS and DHS to develop a coordinated
strategy to reduce growth of the Earnings Suspense File (ESF). SSA agreed with our recommendation.




April 1, 2013 - September 30, 2013                                                                       11

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
Semiannual Report to Congress


INVESTIGATIONS
Our Office of Investigations examines and investigates allegations of fraud, waste, abuse, and
mismanagement in SSA programs and operations. These allegations may involve issues such as
benefit fraud, SSN misuse, violations by SSA employees, or fraud related to grants and contracts. Our
investigations often result in criminal or civil prosecutions or the imposition of CMPs against offenders.
These investigative efforts improve SSA program integrity by recovering funds and deterring those
contemplating fraud against SSA in the future. Our work in the areas of program fraud, enumeration
fraud, SSN misuse, and other Social Security-related fraud ensures the integrity of SSA programs.




                                 Investigative Results
                                      10/1/12-3/31/13       4/1/13-9/30/13             TOTAL

     Allegations Received                  59,745               81,343                141,088


     Cases Opened                          3,963                 4,119                  8,082


     Cases Closed                          4,077                 3,904                  7,981


     Arrests                                275                   254                    529


     Indictments/Informations               582                   590                   1,172


     Criminal Convictions                   711                   612                   1,323


     Civil/CMPs                             134                   193                    327




12                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                    Semiannual Report to Congress




April 1, 2013 - September 30, 2013                                                            13

                                     BackBack
                                          to Table
                                              to Tableof Contents
                                                      of Contents
Semiannual Report to Congress




                        Allegations Received by Source
                                10/1/12-3/31/13      4/1/13-9/30/13              TOTAL

 SSA Employees                      28,150               47,506                   75,656

 Private Citizens                   16,812               17,801                   34,613

 Anonymous                          10,150               10,948                   21,098

 Law Enforcement                    1,513                 1,869                   3,382

 Beneficiaries                      1,330                 1,583                   2,913

 Public Agencies                    1,779                 1,626                   3,405

 Other                                11                    10                      21

 TOTAL                              59,745               81,343                  141,088




                        Allegations Received by Category
                                10/1/12-3/31/13     4/1/13-9/30/13              TOTAL

 Disability Insurance               21,931              24,068                  45,999

 SSI Disability                     12,348              13,027                  25,375

 SSN Misuse                          5,142              15,687                  20,829
 Old-Age and Survivors
                                    14,553              22,431                  36,984
 Insurance
 Other                               3,018               3,470                   6,488

 Threats/Employee Safety              837                 747                    1,584

 Employee-Related                     580                 849                    1,429

 SSI Aged                            1,336               1,064                   2,400

 TOTAL                              59,745              81,343                  141,088




14                                                                   April 1, 2013 - September 30, 2013

                                      BackBack
                                           to Table
                                               to Tableof Contents
                                                       of Contents
                                                                            Semiannual Report to Congress


Significant Investigative Activities

Disability Program Fraud
75 People Charged in Disability Fraud Conspiracy Investigation in Puerto Rico
Acting on a referral from SSA’s New York Regional Office, our Puerto Rico office investigated an alleged
disability fraud conspiracy in Puerto Rico. We identified numerous individuals as allegedly participating
in this scheme, including physicians, other medical service providers, Title II disability claimants and
beneficiaries, and a non-attorney representative who formerly worked for SSA.  The scheme involved
individuals submitting false medical records in support of disability benefit claims. 

On August 21, 2013, our agents, along with the FBI and the Puerto Rico Police Department, conducted
an extensive operation resulting in the arrest of 75 individuals on Federal charges of Social Security fraud
and other crimes. Further judicial actions against these individuals are pending, and the investigation
is ongoing.

Woman Uses Stolen Identities to Collect Unemployment Benefits
Based on a referral from the U.S. Department of Labor (DOL) OIG, our Cincinnati, Ohio office investigated
a 45-year-old SSI recipient who failed to report that she was also collecting unemployment benefits.
We found evidence that she had collected unemployment benefits in 8 states for over 3 years using 50
stolen identities.

As a result of our investigation, the woman pled guilty to theft of Government property and aggravated
identity theft. In August 2013, she was sentenced to 4 years in prison and 3 years’ supervised release.
She was also ordered to pay $78,674 to the States involved. SSA will administratively recover an SSI
overpayment of $7,906.

Man Blames Twin for Posted Earnings
Based on a referral from the Grand Junction, Colorado SSA office, our Denver office investigated a
48-year-old man receiving Title II disability benefits after several of his fingers were amputated. We
found evidence that from March 2007 through September 2011, he was also employed at several
companies performing manual labor. When asked about his earnings, the man blamed his twin brother
for working under his SSN. In fact, we found that the man did have a twin brother, but the twin had not
performed the work in question.

Based on our investigation, the man pled guilty to theft of Government funds. In July 2013, he was
sentenced to 10 months in prison and 3 years’ probation. He was also ordered to pay restitution of
$108,790 to SSA.




April 1, 2013 - September 30, 2013                                                                       15

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
Semiannual Report to Congress


Representative Payee Fraud
Former Public Administrator Misuses Beneficiary Funds
Based on a referral from the U.S. Department of Health and Human Services (HHS) OIG, our Kansas
City office investigated a 61-year-old former public administrator for Jasper County, Missouri. We found
evidence that the woman, who served as a representative payee for multiple SSI recipients, submitted
false Medicaid claims and misused funds intended for the recipients’ care.

She pled guilty to document fraud, and was sentenced in June 2013 to 1 year in prison and 3 years’
supervised release. She was also ordered to pay $45,888 to the Missouri Attorney General’s Office/
Medicaid Fraud Control Unit and $76,112 to the HHS Centers for Medicare and Medicaid.

Woman Conceals Father’s Double Identity
Based on a referral from the Huntington Park, California SSA office, our Los Angeles office investigated
a 54-year-old woman who served as representative payee for her father. She concealed the fact that
her father, a Social Security retirement beneficiary, had a second identity under which he received SSI.
The woman also collected State payments to care for her father while he was living in a full-time care
facility.

Based on our investigation, the woman pled guilty to grand theft. In May 2013, a California Superior
Court judge sentenced her to 5 years’ probation and 1,000 hours of community service. She was also
ordered to pay $43,560 to SSA, $37,523 to the California Department of Health Care Services, and
$82,241 to the California Medi-Cal Program.

SSA Fraud
Jamaican National Pleads Guilty to Defrauding Seniors in Lottery Scheme
During the reporting period, O’Brain J. Lynch, 28, of Jamaica, pled guilty in Wisconsin to defrauding
hundreds of thousands of dollars from seniors across the country.

Lynch and co-conspirators allegedly developed a lottery scheme to obtain victims’ personal information
and use that information to redirect their Social Security benefits to a third party, who wired the stolen
money to Jamaica. We worked closely with the U.S. Postal Inspection Service and U.S. Department
of Homeland Security/Immigration and Customs Enforcement Homeland Security Investigations to
identify Lynch and arrest him in North Carolina in February 2013. Lynch’s arrest and subsequent plea
represents a significant breakthrough in our ongoing investigation of identity theft and fraud schemes
targeting Social Security beneficiaries.  

In June 2013, Lynch pled guilty to wire fraud. He faces a maximum of 20 years in prison. As part of his
plea agreement, he agreed to pay at least $100,000 in restitution to the victims.

Son Cashes Deceased Mother’s Social Security Checks for 13 Years
Our Washington, D.C. office initiated this case based on a fraud allegation referred from an SSA
employee as part of the Centenarian Project, through which SSA verifies that very elderly beneficiaries
are alive. We found evidence that from March 1999 through June 2012, a 61-year-old man failed to
report his mother’s death; and continued to receive her Social Security retirement benefits and Federal
civil service pension payments, which she received as the widow of a Federal employee.

As a result of our investigation, the man pled guilty to theft of Government funds. In August 2013, he
was sentenced to 14 months in prison and 3 years’ supervised release. He was also ordered to pay
$255,038 to SSA and $91,484 to the U.S. Office of Personnel Management.




16                                                                      April 1, 2013 - September 30, 2013

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
                                                                         Semiannual Report to Congress


Fake Psychologist Performs SSA Consultative Examinations
Based on a referral from the Nebraska Department of Health and Human Services OIG, our Omaha
office investigated a former consultative examiner with the Nebraska DDS. We found evidence that she
provided false information to obtain a license to practice as a psychologist in Nebraska; and that she
evaluated SSA claimants for the DDS although she knew she was unqualified to do so.

The woman pled guilty to health care fraud and making false claims. In July 2013, she was sentenced
to 4 years in prison and 3 years’ probation. She was also ordered to pay restitution of $46,667 to SSA
and $5,648 to the State of Nebraska.

Deceased Payee
California Man Conceals Father’s Death and Cashes Benefit Checks
After the Santa Ana, California Police Department requested our assistance, our Santa Ana office
investigated a 46-year-old man whose father’s remains were found at a former residence. The man
admitted that he had buried his father in his backyard after his death in 2005, and since then had been
forging and cashing his monthly Social Security retirement checks. We also found evidence that he
had accessed his father’s pension fund and opened numerous credit card accounts using his father’s
identity.

Based on our investigation, the man pled guilty to grand theft by embezzlement, forgery, identity
theft, and forging an access cardholder’s signature. In July 2013, a California Superior Court judge
sentenced him to 6 years in prison; and ordered him to pay restitution of $92,957 to SSA and $4,446 to
the Washington Mutual Bank.

New Hampshire Man Steals Over $151,000 in Benefits Over 13 Years
Based on a referral from the Burlington, Vermont SSA office, our Manchester, New Hampshire office
investigated a 55-year-old New Hampshire man. We found evidence that after his life partner’s
grandmother died in December 1998, the man failed to report her death to SSA, added his own name
to her bank account, and removed her grandson’s name. The grandmother had resided with the two
men, and they both shared power of attorney over her financial assets.

As a result of our investigation, the man pled guilty to theft of Government funds. In August 2013,
he was sentenced to 3 years’ probation and 300 hours’ community service; and was ordered to pay
restitution of $151,751 to SSA.




April 1, 2013 - September 30, 2013                                                                  17

                                        BackBack
                                             to Table
                                                 to Tableof Contents
                                                         of Contents
Semiannual Report to Congress


Employee Fraud
Former Employee Convicted of Receipt of Child Pornography
In response to a referral from the SSA Systems Security Operations Center, our Seattle office investigated
an Office of Disability Adjudication and Review senior case technician. We found evidence that he used
his SSA workstation to visit websites containing malware and child pornography; and downloaded
thousands of images of child pornography onto his SSA workstation and personal computer.

As a result of our investigation, the man pled guilty to receipt of child pornography. In July 2013, he was
sentenced to 60 months in prison and 10 years’ supervised release. SSA terminated his employment
in June 2013.

Employee Pays His Bills Using Beneficiaries’ Bank Accounts
Based on a referral from the Fort Lauderdale SSA office, our Birmingham, Alabama office investigated
an SSA service representative. We found evidence that he used the bank accounts of recently deceased
Social Security beneficiaries to make online payments for his own bills. The fraud loss was $331,010.

As a result of our investigation, the man pled guilty to aggravated identity theft and access device fraud.
In April 2013, he was sentenced to 5 years and 10 months in prison and 3 years’ supervised release;
and was ordered to pay $40,857 to SSA. A forfeiture money judgment of $175,559 was also entered
against the man. (Although the fraud loss was $331,010, many online payments were reversed by the
financial institutions.) The employee resigned from SSA in March 2011.

SSN Misuse
Undocumented Immigrant Steals Identity and Obtains Second SSN to Receive SSI
Based on a referral from the Tucson, Arizona SSA office, our Seattle office investigated a 69-year-old
Bellevue, Washington woman for identity theft. We found evidence that the woman had assumed the
identity of a woman living in Arizona, then established a second SSN using her identity. The woman, an
undocumented immigrant, then worked under the second SSN, and eventually filed for and received
SSI and State medical benefits. As a result of our investigation, she pled guilty to SSN misuse. In April
2013, she was sentenced to 30 days’ home confinement and 1 year of supervised probation; and was
ordered to pay $98,006 to SSA and $31,485 to the State of Washington.

This investigation stemmed from an OIG audit, Individuals Receiving Benefits Under Multiple SSNs at
Different Addresses. As part of that audit, we referred over 110 cases to SSA for further administrative
development, and SSA referred many of those cases to our Office of Investigations when that
development revealed evidence of potential fraud.

SSN Misuse Investigation Leads to Stolen Property
Based on a referral from the Monroe, Louisiana SSA office, our Baton Rouge office investigated a
55-year-old Colorado man, jointly with the Cripple Creek, Colorado Police Department, U.S. Department
of State, FBI, and the Bureau of Alcohol, Tobacco, Firearms, and Explosives. Our investigation found
evidence that the man stole $280,000 in firearms, ammunition, gold, antique coins, jewelry, and antique
military paraphernalia, including a 22-karat gold medal given by George Washington to a Revolutionary
War general.

The man later fled to Louisiana, and obtained seven false identities: four were stolen identities of living
persons, two were deceased, one was an acquaintance, and one was his son. He used the identities to
obtain Louisiana driver's licenses and a U.S. Passport, and to rent mini-warehouses to store the stolen
property. Federal agents recovered 42 firearms, 36,000 rounds of ammunition, and most of the jewelry
and medals.


18                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                           Semiannual Report to Congress


The man pled guilty to multiple charges, including SSN misuse, making a false statement to a Federal
agent, and aggravated identity theft. In June 2013, he was sentenced to 4 years and 3 months in
Federal prison and 3 years’ supervised release; and was ordered to pay $45,000 to the Colorado theft
victim. Colorado state charges of grand theft are still pending.



Threats and Assaults Against SSA Employees
Employee safety is of paramount concern to SSA and OIG. Social Security employees must follow
extreme caution as the number of Americans who depend on government services increases during
times of economic challenge.

The Inspector General’s OI shares the responsibility for investigating reports of threats or force or use
of force against Agency employees with the Department of Homeland Security’s Federal Protective
Service, which has jurisdiction over physical property owned or leased by the Federal government, and
with local law enforcement if the activity occurs off federally owned or leased property.

During the reporting period, OIG received more than 1,500 allegations nationwide related to employee
safety issues, of which almost 400 involved assault or harassment, and over 1,100 were associated
with threats against SSA employees or buildings. OI opened and closed over 80 cases nationwide
related to employee safety.

The following case summaries highlight significant investigations we conducted during this reporting
period in which SSA employees were threatened by members of the public.

Beneficiary Disrupts Local SSA Office
Our Los Angeles office responded to an incident report from the Long Beach, California SSA office
about an assault on an employee. We investigated and found that a 51-year-old SSI recipient had
become disruptive when an SSA service representative declined to make changes to her payment
status without her representative payee present in the office. The woman then claimed to have HIV and
spat at a supervisor. She was arrested and charged with assault, and she later pled guilty. In April 2013,
a Los Angeles County Superior Court judge sentenced her to 30 days in prison and 3 years’ probation.

Incarcerated Man Threatens Government Officials
Based on a referral from the Federal Protective Service, our Manchester, New Hampshire office
investigated a 23-year-old man who, while serving a State prison sentence, mailed a threatening letter
to the Rutland, Vermont SSA office. The letter included threats against the President of the United
States, the Governor of Vermont, and an SSA employee. The man pled guilty to mailing threatening
communications. In July 2013, he was sentenced to 51 months in Federal prison and 3 years’ supervised
release.




April 1, 2013 - September 30, 2013                                                                     19

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
Semiannual Report to Congress


Cooperative Disability Investigations Program
The CDI program continues to be one of our most successful joint initiatives, contributing to the integrity
of SSA’s State disability programs. CDI is a joint effort of the OIG, SSA, State Disability Determination
Services (DDS), and State/local law enforcement personnel. Established in 1998 with units in just five
states, the CDI program now has 25 units in 21 states and the Commonwealth of Puerto Rico. The units
work to obtain sufficient evidence to identify and resolve issues of fraud and abuse related to initial and
continuing disability claims.
The following CDI case summaries highlight major investigations we conducted during this reporting
period that enhanced SSA program integrity and the reliability of SSA’s operations.


Disability Beneficiary Conceals Tree-Removal Business
The St. Louis CDI Unit investigated a 58-year-old man who was receiving DI benefits for mood disorders
and mental retardation. The man’s ex-wife reported to SSA that he was the owner and operator of a tree
stump-removal business, and was concealing this income from SSA.

We conducted surveillance on several occasions and observed the man carrying tools, driving
vehicles, supervising workers at job sites, and conversing with customers. During an interview with
CDI investigators, the man indicated that he had been in the tree-removal business for the last 12 to 15
years. The man claimed it was a full-time business operating 365 days a year, depending on availability
of work and weather conditions.

SSA terminated the man’s disability benefits. In April 2013, after the man pled guilty to theft of Government
funds and false statements, a U.S. District Court judge sentenced him to 5 years’ probation and ordered
him to pay restitution of $274,143 to SSA.

Actor Denied Disability Benefits
The Columbia, South Carolina CDI Unit investigated a 38-year-old man who applied for DI benefits due
to HIV, right knee pain, depression, and post-traumatic stress disorder. The man claimed that he was
bothered by loud noises, was nervous around others, and preferred being alone. He further claimed
that he only left the house once or twice a day to get his mail. The DDS referred this case because an
anonymous source reported that the man was working as a model and actor.

Our investigation found evidence, via the man’s social media accounts and other means, that he worked
as a model in Atlanta and acted in amateur and professional productions. He posted that he was a
“regular” on the television series “Army Wives,” filmed in Charleston, South Carolina. CDI investigators
contacted the casting director of "Army Wives" and verified that the man was a paid extra on the series.
The casting director said the man had been associated with the series for three years, was known for
being sociable, and was always happy and upbeat. He added that the man participated in battle scenes
with special effects including explosions and gunfire.

The South Carolina DDS denied the man’s benefit claim.




20                                                                        April 1, 2013 - September 30, 2013

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
                                                                                                                                             Semiannual Report to Congress


The following table highlights the successes of the CDI program, which yielded more than $170
million in SSA program savings during this reporting period:


                            Cooperative Disability Investigations Program Results
                                     April 1, 2013 - September 30, 2013
                                                                                                 Cases
                                                               Allegations                                                                                             Non-SSA
                          State                                                                  Denied/                      SSA Savings1
                                                                Received                                                                                               Savings2
                                                                                                 Ceased
      Arizona                                                           159                          80                             $7,031,602                         $5,286,848
      California3                                                     466                           198                            $13,454,188                        $12,786,645
      Colorado                                                        100                           62                              $5,445,008                         $3,863,392
      Florida                                                         132                           68                              $5,450,687                         $4,041,643
      Georgia                                                         110                            78                             $6,580,733                         $4,114,387
      Illinois                                                        105                           91                              $6,640,586                         $4,280,173
      Kentucky                                                        104                           41                              $3,665,080                         $2,155,966
      Louisiana                                                       115                            67                             $6,011,412                         $4,011,474
      Massachusetts                                                   129                           71                              $6,398,875                         $5,427,403
      Mississippi                                                      63                            34                             $2,480,426                         $1,599,703
      Missouri4                                                       332                           194                            $15,394,563                        $10,953,783
      New Jersey5                                                       2                             0                                     $0                                 $0
      New York                                                         50                            28                             $2,509,919                         $1,876,839
      Ohio                                                            335                           144                            $11,181,911                        $10,157,720
      Oklahoma                                                        139                           89                              $7,777,045                         $4,524,046
      Oregon                                                          242                           180                            $15,695,055                        $11,683,391
      Puerto Rico6                                                     37                             0                                $90,125                            $32,369
      South Carolina                                                  198                           147                            $12,764,442                         $8,052,798
      Tennessee                                                        47                            17                             $1,483,428                           $970,340
      Texas7                                                          235                           148                            $12,462,698                         $9,465,998
      Utah                                                            168                           93                              $8,189,296                         $5,420,667
      Virginia                                                        100                           89                              $7,986,126                         $6,000,860
      Washington                                                      220                           147                            $11,723,917                         $7,218,947
      Total (10/1/12 – 3/31/13)                                      3,446                         2,068                               169,810,725                    122,523,007
      Total (4/1/13 – 9/30/13)                                      3,588                         2,066                            170,417,122                        123,925,392
      Grand Total FY 2013                                           7,042                         4,134                            340,227,847                        246,448,399
      1 SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations.  When a CDI Investigation supports the cessation /

      termination of an in-pay case, SSA program savings are calculated using a formula that takes into account the average number of years that SSA has determined that a person

      remains on its rolls, as well as the total percentage of CDRs that resulted in a suspension, termination, or reduction in benefits due to CDI investigations.

      2 Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation, using estimated or actual

      benefit amounts documented by the responsible agency.

      3 California has two units, one in Los Angeles, and the other in Oakland.

      4 Missouri has two units, one in Kansas City and the other in St. Louis.

      5 The Iselin, New Jersey CDI Unit became non-operational during the last reporting period; however, cases continued to come to resolution during this reporting

       period. Therefore, statistical accomplishments are reported.

      6 The Iselin, NJ CDI Unit ceased operations during the last reporting period; however, cases continued to come to resolution during this reporting period. Therefore, statistical

      accomplishments are recorded.

      7 Texas has two units, one in Dallas, and the other in Houston.



April 1, 2013 - September 30, 2013                                                                                                                                                            21

                                                                           BackBack
                                                                                to Table
                                                                                    to Tableof Contents
                                                                                            of Contents
Semiannual Report to Congress


LEGAL

Section 1140 Enforcement and Case Highlights
Using authority delegated by the Commissioner of Social Security, we aggressively enforce Section
1140 of the Social Security Act, which prohibits the misuse of SSA words and symbols in misleading
advertisements, solicitations, or other communications. It also prohibits the reproduction and sale of
SSA forms without authorization.
Misleading communications take many forms, such as deceptive mailers, misleading attorney advertising,
and more recently (and at an alarming rate), misleading Internet solicitations, including the online sale
of otherwise free Social Security forms. In the pursuit of financial gain or the accumulation of personal
information, scammers utilize misleading domain names, develop misleading websites, and place
deceptive advertisements with search engines to create a false sense that they are associated with
SSA. Section 1140 provides for up to $5,000 in CMPs for each violation, and $25,000 for a broadcast/
telecast. Penalties collected are deposited into SSA’s Old Age and Survivors Trust Fund.

                                          SECTION 1140

                                        10/1/12– 3/31/13        4/1/13-9/30/13              Total

 Cases Reviewed                                 63                     62                    125

 Cases Closed - No Violation of
                                                22                     24                     46
 Section 1140

 Cases Successfully Resolved
 (Voluntary Compliance and                      41                     38                     79
 Settlement Agreement)

 Penalties Imposed                           $52,000               $112,500               $164,500

We also conduct Section 1140 outreach with companies such as search engine operators, domain
registrars, and financial institutions. Credit card companies now help us locate fraudulent websites
and identify the perpetrators; and they combat fraud by ceasing to accept funds or process payment
transactions from Section 1140 violators. Google and Microsoft (which operate Yahoo! and Bing search
engines) have also taken steps in the fight against advertising violations of Section 1140. Both companies
have modified their advertising policies to broadly reflect the Section 1140 prohibitions against creating
the false impression of a connection to a governmental agency, and prohibiting advertising the sale of
free government forms. More about our outreach efforts can be found here.

Recently, we have focused our outreach efforts to combat a recent trend of Section 1140 violations via
social networking and App marketing sites. Most recently, we requested Twitter shut down an account
using the name @SociSecurity, which used SSA’s official emblem to mimic SSA’s Twitter account. Apps
being marketed using SSA’s official emblem, images of Social Security cards, and other misleading
elements are causing consumer confusion regarding the possible appearance of a connection with
SSA. We have also met with social networking platform operators and App marketers, including Google
Inc., Microsoft Corp., Apple Inc., LinkedIn, MyLife, and Pinterest, to ensure that these venues do not
become a vehicle for Social Security-related fraud. In September 2013, we met with Microsoft’s General
Counsel’s office, which agreed to review its policy to help prevent such fraudulent apps from being made
available through the Microsoft store, and assess the feasibility of a filtering system to identify attempts
to post such apps. We also agreed on a process to shut down violative apps as soon as possible.

22                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                         Semiannual Report to Congress



Company Pays CMP to Settle Insurance-Related Lead Card Mailing Claim
Kramer Direct, LLC (Kramer) agreed to pay a CMP of $65,000 to settle our claim that the company
violated Section 1140 by printing and mailing solicitations containing references to Social Security on
the outside of the solicitations in a manner that conveyed a false impression of a connection with SSA.
Without admitting that it violated Section 1140, Kramer fully cooperated with our Section 1140 inquiry.

Online Marketer Pays CMP to Settle Facebook Advertisement Claim
League Nation, LLC (doing business as AutoQuoteTips.com), agreed to pay a CMP of $20,000 to settle
our claim that the company violated Section 1140 by disseminating Facebook solicitations displaying
an image of a Social Security card in a manner that conveyed the false impression that the solicitations
were endorsed or authorized by SSA, or that its owners have some connection with or authorization
from SSA. League Nation fully cooperated with the OIG’s inquiry into this matter. While the Company
denies the allegations, the settlement agreement assures voluntary compliance with Section 1140.

Company Pays CMP to Settle URL and Website Claim
Accucom Corporation (Accucom) (doing business as CIS Nationwide) agreed to pay a CMP of $7,500
to settle our claim that the company violated Section 1140. OIG asserted that Accucom violated the
Act through the use of the URL SSNRecords.org and the website’s use
of an emblem containing the words “Social Security Records,” an image
of government-columned building, and the U.S. Flag in a manner that
conveyed a false impression of a connection with SSA. Accucom fully
cooperated with OCIG. Without admitting that it violated Section 1140,
the company discontinued its use of the domain name SSNRecords.org,
voluntarily shut down the related website, and agreed to comply with
Section 1140 for any future website operations.

Six Companies Discontinue Distribution of Social Security-Related
Apps
At the request of OCIG, six separate App marketers agreed to pull Apps that OIG asserted were
marketed in a manner that conveyed a false impression of a connection with SSA, in violation of Section
1140, due to the use of images of SSA’s official emblem, Social Security cards, SSA publications, and
SSA-protected words. Four of the Apps were offered on Google, Inc.’s Google Play store, while the
remaining two were offered on Apple, Inc.’s Apple Store.



Section 1129 Enforcement and Case Highlights
The OIG's CMP program, targeting violations of Section 1129 of the Act, maximizes available resources
and creates a positive return on investment. Section 1129 authorizes a CMP against anyone who make
any false statements or representations in connection with obtaining or retaining benefits or payments
under Titles II, VIII, or XVI of the Act. In addition, CMPs may be imposed against representative payees
for wrongful conversion of payments, or against individuals who knowingly withhold a material fact from
SSA. After consultation with DOJ, we are authorized to impose penalties of up to $5,000 for each false
statement, representation, conversion, or omission. A person may also be subject to an assessment,
in lieu of damages, of up to twice the amount of any resulting overpayment.

We are committed to increasing the number of cases successfully resolved each year to ensure
Section 1129 serves to punish wrongdoing in cases where criminal prosecution has been declined.
In FY 2013, we successfully resolved 280 cases and imposed over $15 million in CMPs.


April 1, 2013 - September 30, 2013                                                                   23

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
Semiannual Report to Congress


                                           SECTION 1129
                                            10/1/12– 3/31/13       4/1/13 - 9/30/13           TOTAL

 Cases Received                                   1,152                  1,155                 2,307
 Cases Initiated                                   240                    247                   487
 Cases Closed                                      533                    807                  1,340
 Penalties and Assessments
                                               $5,315,903             $9,994,227           $15,310,130
 Imposed
 Number of Hearings Requested                      24                     30                    54
 Cases Successfully Resolved
 (settled case, favorable judgment,                106                    174                   280
 or penalty imposed)

California Woman Fails to Report Death of SSI Recipient
A woman failed to report the death of a friend in El Salvador in August 2004 to facilitate the improper
receipt of SSI. The subject opened a joint account with the friend to receive SSI, then failed to report that
her friend had died, so that she could continue using the funds. During an interview with an OIG agent,
she admitted that she knew she was not eligible to receive or withdraw these funds. We imposed an
$80,000 penalty and a $56,809 assessment, for a total CMP of $136,809.

Michigan Man Made False Statements to Receive SSI
On multiple occasions, a man reported that he did not live with his wife, so he could continue to receive
SSI. He notified SSA that he was separated from his wife, and used a relative’s address. The man
admitted that he failed to notify SSA that he lived with his wife because he knew her income would affect
his eligibility for SSI. We imposed a $120,000 penalty and a $40,023 assessment, for a total CMP of
$160,023.

Florida Auto Shop Owner Worked While Collecting Benefits
An auto shop owner/operator applied for DI in June 2006 based on chronic renal failure. An OIG
investigation found evidence that he concealed his work activity while collecting DI for himself, his wife,
and his three minor children. After a Departmental Appeals Board hearing, an ALJ upheld a $43,000
penalty and $89,262 assessment, for a total CMP of $132,262. A copy of the decision can be found at
http://www.hhs.gov/dab/decisions/civildecisions/cr2814.pdf

California Mother and Grandmother Conspired to Defraud SSA
A mother, who was the representative payee for her disabled daughter, conspired with her own mother to
fraudulently obtain SSI benefits. When the mother started a lucrative job that would have rendered her
daughter ineligible for SSI, the child’s grandmother told SSA that the disabled girl had moved in with her,
when in fact, the girl resided with her mother. The grandmother and mother then shared the $21,990 in
SSI that they wrongfully received. OCIG imposed a penalty of $35,000 and an assessment of $43,980
against the grandmother for a total CMP of $78,980. OCIG imposed a penalty only of $81,000 (since
the overpayment is being recovered from the grandmother) against the mother, who masterminded the
scheme. Thus, the total CMP imposed against the co-conspirators was approximately $160,000.

Mississippi Man Caught after 20 Years of Failing to Report Deaths
An elderly man failed to notify SSA when his sister died in 1985 and, later, when his aunt died in 1999. As
the representative payee for both, he continued to receive checks SSA issued to them for more than 20
years, falsely representing to SSA that the sister and aunt were still alive and receiving benefits. When
the man’s wife discovered his wrongdoing, after coming across some paperwork, she notified SSA. He
agreed to repay the more than $300,000 in benefits he wrongly received, plus a significant penalty for a
total CMP of $323,600.

24                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                           Semiannual Report to Congress


SUPPORT

Budget
For FY 2013, under sequestration, our annual appropriation was $96.9 million, supplemented by $3 million
of transfer authority received from the agency, increasing our authorized funding to $99.9 million. This
supported an estimated end-of fiscal year staffing level of 550. Salaries and benefits of our employees
account for 90 percent of overall spending. The remaining 10 percent provides for basic infrastructure
needs such as rent, reimbursable work authorizations, fleet, and interagency service agreements, as well
as necessary expenses for travel, training, communications, and general procurement. . We expend our
appropriation each year supporting our responsibility to achieve the goals set forth in the OIG Strategic
Plan for Fiscal Years 2011 – 2015. The goals and accomplishments measured in the Strategic Plan are
also published in SSA’s Annual Congressional Budget Justification. Sequestration presents additional
challenges for us to provide sustained levels of agency and citizen based service, given the reality of
declining funding for our operations. As of the publication of this report, we were still assessing the
impact of sequestration on our operations going forward. We plan to include information and discussion
on the impact of sequestration in future Semiannual Reports to Congress.


Human Resource Planning and Management
We actively pursue and work to retain the best possible employees. Our succession planning and
knowledge-transfer strategies focus on creating a culture to ensure smart recruitment, tailored inter-
nal training, effective leadership transition efforts, and reciprocal developmen­tal programs. In addition
to participating with agency developmental programs, OIG offers developmental programs to utilize
knowledge transfer practices, bridge knowledge gaps, and drive innovation for organizational perfor-
mance improvement. With sequestration, we are strategizing to find effective, low-cost ways to de-
velop our employees and facilitate knowledge-transfer sessions.

Information Technology
During this reporting period, OIG Information Technology (IT) specialists continued working to update
and improve the OIG systems environment. This includes migration to a new infrastructure platform to
provide redundancy and failover for OIG applications and data including our National Investigative Case
Management System as well as an upgrade of our Business Process Management software, which
provides workflows and approval chains for automated OIG business processes.
We also continued the effort to implement business intelligence software to provide enhanced management
information to OIG executives and managers. Once these upgrades have been completed, we will
continue to automate our existing business processes in an effort to decrease costs and increase
efficiency.

During this reporting period, we continued to expand our telework program with plans for additional
expansion in FY 2014. We continue to make improvements to our telework infrastructure for increased
capacity and improved performance. The technologies we implemented allow for a productive remote
workforce without sacrificing the security of sensitive information. These steps align the OIG with the
goals and requirements of the Telework Enhancement Act of 2010.

Finally, our IT staff analyzes industry trends to find new technologies that may enhance our business
processes. During this period, we have continued to expand the use of virtual technologies and have
begun to pilot virtual desktop infrastructure for both internal and remote use, to reduce hardware and
deployment costs, and enhance data security. We have also utilized virtualization to decrease the number
of physical servers in use, which has reduced power consumption and increased system uptime.


April 1, 2013 - September 30, 2013                                                                     25

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
Semiannual Report to Congress


OIG IT specialists continue to meet the challenge of providing a variety of IT support services for more
than 70 OIG offices throughout the country.

Allegation Management and Fugitive Enforcement Division
The OIG’s Fugitive Felon Enforcement Program identifies individuals reported to have outstanding felony
arrest warrants and outstanding warrants for parole and probation violations. SSA shares its location
information for wanted felons with local law enforcement agencies to assist in their apprehension efforts.
In turn, these agencies advise SSA on the disposition of the warrant so SSA can take appropriate
administrative action on the benefits.
Our data-sharing efforts with law enforcement agencies contributed to the arrest of 182 subjects during
the reporting period, and more than 95,990 arrests since the program’s inception in 1996. The following
are some examples of fugitive felon activities during the past six months:
Case Highlights
 •	 OIG agents and deputies of the U.S. Marshals Service North Texas Fugitive Task Force in Tyler,
    Texas arrested an SSA beneficiary wanted on a warrant dated July 2013 for Indecency with a Child
    (by contact) and Sexual Exploitation of Children. This felony warrant was issued by the Dallas
    County Sheriff’s Office and the Federal Bureau of Investigation.
 •	 OIG agents along with the U.S. Marshals Service, Capital Area Regional Fugitive Task Force in
    Richmond, Virginia arrested an SSA beneficiary wanted on warrants dated September 2013 for
    Use of a Firearm in the Commission of a Felony and Attempted 1st Degree. The felony warrant
    was issued by the Richmond City Police Department.



Outreach
During the reporting period, the Inspector General testified before the following Congressional entities
on various issues affecting SSA, the OIG and SSA beneficiaries, including:
     •	 challenges facing the next Commissioner of Social Security, and the disability fraud conspiracy in
        Puerto Rico before the House Subcommittee on Social Security;
     •	 the Federal government’s procurement of ammunition, before the House Subcommittee on National
        Security and the House Subcommittee on Economic Growth, Job Creation and Regulatory Affairs;
     •	 improving Federal payment accuracy, before the Senate Committee on Homeland Security and
        Governmental Affairs; and
     •	 the direct deposit of Social Security payments, before the Senate Special Committee on Aging.
The Inspector General also presented at the Association of Government Accountants (AGA) Professional
Development Conference in Dallas, Texas and at the National Association of Disability Examiners (NADE)
National Training Conference in Oklahoma City, Oklahoma. The Deputy Inspector General spoke at the
Joint Financial Management Improvement Conference in Washington, D.C., and the Assistant Inspector
General for Investigations presented at the Association of Certified Fraud Examiners Conference in
Baltimore, Maryland.




26                                                                        April 1, 2013 - September 30, 2013

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
Reporting Requirements
              and
       Appendices




    BackBack
         to Table
             to Tableof Contents
                     of Contents
Semiannual Report to Congress




                Reporting Requirements
                This report meets the requirements of the Inspector General Act of 1978, as
                amended, and includes information mandated by Congress.



                     Section                           Requirement                           Page(s)

                   Section 4(a)(2)    Review of legislation and regulations                  Appendix I


                   Section 5(a)(1)    Significant problems, abuses, and deficiencies           P. 15


                   Section 5(a)(2)    Recommendations with respect to significant
                                                                                               P. 15
                                      problems, abuses, and deficiencies
                                      Recommendations described in previous
                   Section 5(a)(3)                                                            Appendix
                                      Semiannual Reports on which corrective actions are
                                                                                                F&G
                                      incomplete
                   Section 5(a)(4)    Matters referred to prospective authorities and the
                                                                                               P. 15
                                      prosecutions and convictions that have resulted

                  Section 5(a)(5) &   Summary of instances where information was
                                                                                                N/A
                   Section 6(b)(2)    refused


                   Section 5(a)(6)    List of audits                                         Appendix B


                   Section 5(a)(7)    Summary of particularly significant reports               P. 10


                                      Table showing the total number of audit reports and     Appendix
                   Section 5(a)(8)
                                      total dollar value of questioned costs                    A&B

                                      Table showing the total number of audit reports and     Appendix
                   Section 5(a)(9)
                                      total dollar value of funds put to better use             A&B

                                      Audit recommendations more than 6 months old for        Appendix
                   Section 5(a)(10)
                                      which no management decision has been made                A&B

                                      Significant management decisions that were revised
                   Section 5(a)(11)                                                             N/A
                                      during the reporting period

                                      Significant management decisions with which the
                   Section 5(a)(12)                                                          Appendix D
                                      Inspector General disagrees




28                                                                            April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                                   Semiannual Report to Congress




      Appendix A: Resolving Audit Recommendations
      The following chart summarizes SSA’s responses to our recommendations for the
      recovery or redirection of questioned and unsupported costs. Questioned costs are those
      costs that are challenged because of a violation of law, regulation, etc. Unsupported
      costs are those costs that are questioned because they are not justified by adequate
      documentation. This information is provided in accordance with P.L. 96-304 (the
      Supplemental Appropriations and Recession Act of 1980) and the Inspector General
      Act of 1978, as amended.

                       Reports with Questioned Costs for the Reporting Period
                                   April 1, 2013 - September 30, 2013
                                                                        Value             Value
                                                         Number
                                                                      Questioned       Unsupported
            A. For which no management
            decision had been made by the                   16         $481,813,954       $6,778,422
            commencement of the reporting period
             B. Which were issued during                    7a,b        $91,507,579      $54,862,015
             the reporting period.

                  Subtotal (A + B)                          23         $573,321,533      $61,640,437


               Less:

            C.	For which a management decision
            was made during the reporting                   12          $62,135,624                $0
            period.

               i. Dollar value of disallowed costs.          9          $15,557,084                $0


               ii. Dollar value of costs not
                                                             3          $46,578,540                $0
               disallowed.
            D.	For which no management decision
            had been made by the end of the                 13         $511,185,909      $61,640,437
            reporting period.

      a.
            See Reports with Questioned Costs in Appendix B of this report.­
      ­b.
            Two reports each have two monetary recommendations; two recommendations are reflected in




April 1, 2013 - September 30, 2013                                                                           29

                                                BackBack
                                                     to Table
                                                         to Tableof Contents
                                                                 of Contents
Semiannual Report to Congress




              The following chart summarizes SSA’s response to our recommendations that
              funds be put to better use through cost avoidances, budget savings, etc.


                 Reports with Recommendations that Funds Be Put to Better Use
                      Reporting Period April 1, 2013 - September 30, 2013

                                                                                 Number         Dollar Value
                A. For which no management decision had been
                  made by the commencement of the reporting                          6          $551,123,130
                  period.
                B.	 Which were issued during the reporting period.                   8a         $605,731,249


                		       Subtotal (A + B)                                            14        $1,156,854,379


                       	 Less:

                C.	 For which a management decision was made
                  during the reporting period.

                  i. Dollar value of recommendations that were
                                                                                     4            $4,833,069
                   agreed to by management.

                       (a) Based on proposed management action.                      4            $4,833,069


                       (b) Based on proposed legislative action.                     0                    $0

                  ii.	 Dollar value of costs not agreed to by
                                                                                     2           $63,941,736
                       management.

                		       Subtotal (i + ii)                                           6           $68,774,805

                D. For which no management decision had been
                                                                                     8         $1,088,079,574
                  made by the end of the reporting period.


                ­a.
                      See Reports with Funds Put to Better Use in Appendix B of this report.




30                                                                                April 1, 2013 - September 30, 2013

                                                BackBack
                                                     to Table
                                                         to Tableof Contents
                                                                 of Contents
                                                                                Semiannual Report to Congress




       Appendix B: Reports Issued
                            Reports with Non-Monetary Findings
                           October 1, 2012 - September 30, 2013
        Audit Number                             Report                              Issue Date

                         Accuracy of the Social Security Administration’s
        A-08-12-11280                                                                 10/3/2012
                         Numident

                         Administrative Costs Claimed by the Connecticut
        A-01-12-12104                                                                 10/18/2012
                         Disability Determination Services

                         Monitoring Controls for the Consent Based Social
        A-03-12-11201                                                                 10/25/2012
                         Security Number Verification Program

                      Fiscal Year 2012 Inspector General Statement on the
        A-02-13-13041 Social Security Administration's Major Management and           11/8/2012
                      Performance Challenges

                         The Social Security Administration's Financial Report for
        A-15-12-11286                                                                 11/8/2012
                         Fiscal Year 2012

                      The Social Security Administration's Compliance with
        A-14-12-12120 the Federal Information Security Management Act of              11/15/2012
                      2002 for Fiscal Year 2012

                         Controls over Payments Made to Claimant
        A-05-12-11239                                                                 12/4/2012
                         Representatives at the Hearings Level
                         Benefit Payments Managed by Representative Payees
        A-13-12-11245    of Children in Pennsylvania's State Foster Care              12/4/2012
                         Programs
        A-06-10-20155 Noncitizens Issued Multiple Social Security Numbers             12/10/2012

                         Training and Development of Hearing Office Group
        A-12-12-11240                                                                 12/10/2012
                         Supervisors

                      Congressional Response Report: The Social Security
        A-13-12-22143 Administration’s Compliance with Equal Employment              12/11/2012
                      Opportunity Commission Decisions

                      Direct Deposit Changes Initiated Through Financial
                      Institutions and the Social Security Administration's
        A-14-12-21271                                                                 12/20/2012
                      Internet and Automated 800-Number Applications
                      (Limited Distribution)
                         Controls over the Enrollment Process with the Direct
        A-15-12-21273                                                                 12/21/2012
                         Express® Debit Card Program (Limited Distribution)




April 1, 2013 - September 30, 2013                                                                        31

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
Semiannual Report to Congress




                                   Reports with Non-Monetary Findings
                                  October 1, 2012 - September 30, 2013
             Audit Number                                Report                              Issue Date
                           The Social Security Administration's Reporting of High-
             A-15-13-13068 dollar Overpayments Under Executive Order 13520 in                12/28/2012
                           Fiscal Year 2012
                           Congressional Response Report: Memorandum
                           of Understanding between General Services
             A-15-13-23043                                                                   12/28/2012
                           Administration and Social Security Administration for
                           Space and Service
                                Individuals Hiding Self-Employment Income to Receive
             A-07-12-11268                                                                   1/11/2013
                                Disability Insurance Benefits

                                Controls over Direct Deposit Changes Initiated in Field
             A-06-12-22101                                                                   1/23/2013
                                Offices (Limited Distribution)
                                Identifying and Monitoring Risk Factors at Hearing
             A-12-12-11289                                                                   1/24/2013
                                Offices
                                Single Audit of the Hawaii Department of Human
             A-77-13-00001                                                                   1/25/2013
                                Services for the Fiscal Year Ended June 30, 2011

                                Access to Social Security Administration Data at the
             A-15-11-01127                                                                   1/29/2013
                                Disability Determination Services

                                Congressional Response Report: The Social Security
             A-01-13-23051                                                                    2/1/2013
                                Administration's Disability Research Consortium

                                Administrative Costs Claimed by the Texas Disability
             A-06-12-11283                                                                    2/4/2013
                                Determination Services

                                Single Audit of the State of Oklahoma for the Fiscal Year
             A-77-13-00002                                                                    2/7/2013
                                Ended June 30, 2011

                                Sanctioned Medical Providers and Medical Evidence of
             A-01-13-23064                                                                    2/8/2013
                                Record

                                Overall Processing Times for 2010 Childhood                   2/8/2013
             A-04-12-11230
                                Supplemental Security Income Claims
                           Congressional Response Report: Interagency
             A-05-12-22144 Agreements with the Office of Personnel Management                2/14/2013
                           for Administrative Law Judge Services

                                Single Audit of the State of North Carolina for the Fiscal
             A-77-13-00003                                                                   2/26/2013
                                Year Ended June 30, 2011
                                Single Audit of the State of Nebraska for the Fiscal Year
             A-77-13-00004                                                                   2/26/2013
                                Ended June 30, 2011




32                                                                           April 1, 2013 - September 30, 2013

                                            BackBack
                                                 to Table
                                                     to Tableof Contents
                                                             of Contents
                                                                               Semiannual Report to Congress




                              Reports with Non-Monetary Findings
                             October 1, 2012 - September 30, 2013
          Audit Number                              Report                              Issue Date

          A-15-12-12115    Performance Indicator Audit: Hearing Requests                2/27/2013

                           Single Audit of the State of Wisconsin for the Fiscal Year
          A-77-13-00005                                                                 2/27/2013
                           Ended June 30, 2011
                        Summary of Inspectors General Compliance with the
          A-01-13-23031 Improper Payments Elimination and Recovery Act of                3/1/2013
                        2010
                           Accuracy of Quarterly Wage Data and Their Impact on
          A-03-12-11213                                                                 3/12/2013
                           Social Security Benefits

                           Single Audit of the State of Iowa for the Fiscal Year
          A-77-13-00006                                                                 3/13/2013
                           Ended June 30, 2011

                           Hearing Office Case Rotation Among Administrative
          A-12-12-11274                                                                 3/14/2013
                           Law Judges
                        Department of Labor Office of Inspector General Peer
          A-13-13-23012                                                                 3/15/2013
                        Review
                        The Social Security Administration's Compliance with
                        the Improper Payments Elimination and Recovery
          A-15-13-13067                                                                 3/15/2013
                        Act of 2010 in the Fiscal Year 2012 Performance and
                        Accountability Report
                           Single Audit of the State of New Jersey for the Fiscal
          A-77-13-00007                                                                 3/21/2013
                           Year Ended June 30, 2011
                           National Support Center Cost Savings (Limited
          A-14-12-12107                                                                 3/29/2013
                           Distribution)
                           Single Audit of the State of Colorado for the Fiscal Year
          A-77-13-00008                                                                  4/2/2013
                           Ended June 30, 2011

          A-15-12-12116    Performance Indicator Audit: Disability Claims                4/3/2013

                           Access Controls for the Social Security Number
          A-03-12-11204                                                                 4/18/2013
                           Verification Service

                           The Social Security Administration's Internal Controls
          A-15-11-11178    over Issuing and Monitoring Contractors' Homeland            4/18/2013
                           Security Presidential Directive-12 Credentials

                        Congressional Response Report: The Social Security
          A-15-13-32104 Administration’s Implementation and Compliance with             4/30/2013
                        Energy Conservation Policies




April 1, 2013 - September 30, 2013                                                                       33

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
Semiannual Report to Congress




                                Reports with Non-Monetary Findings
                             October 1, 2012 - September 30, 2013
          Audit Number                              Report                             Issue Date

                           Title XVI Deceased Recipients Who Do Not Have Death
          A-09-12-22132                                                                 5/3/2013
                           Information on the Numident

                           Single Audit of the State of Ohio for the Fiscal Year
          A-77-13-00009                                                                 5/3/2013
                           Ended June 30, 2011

                           Single Audit of the State of Tennessee for the Fiscal
          A-77-13-00010                                                                 5/7/2013
                           Year Ended June 30, 2011

                           Administrative Costs Claimed by the Arkansas Disability
          A-06-12-12102                                                                 5/8/2013
                           Determination Services
                        Timeliness and Accuracy of Death Reporting for
          A-06-12-21221 Individuals Killed During the September 11, 2001                5/21/2013
                        Terrorist Attacks
                           Single Audit of the Commonwealth of Pennsylvania for
          A-77-13-00011                                                                 5/24/2013
                           the Fiscal Year Ended June 30, 2011

                           Mosaic, An Organizational Representative Payee for the
          A-07-13-23007                                                                 6/7/2013
                           Social Security Administration

                           Single Audit of the State of Arizona for the Fiscal Year
          A-77-13-00012                                                                 6/10/2013
                           Ended June 30, 2011

                           Westat Contract Close Out on Contract Number SS00-
          A-15-12-22118                                                                 6/13/2013
                           05-60072

                           The Social Security Administration's Contract with
          A-13-12-11297                                                                 6/14/2013
                           Compuware Corporation
                           Effects of the Senior Attorney Adjudicator Program on
          A-12-13-23002                                                                 6/28/2013
                           Hearing Workloads
                           Administrative Law Judge/Public Alleged Misconduct
           A-05-11-01131                                                                7/9/2013
                           Complaints System

                           Impact of Increases in State Unemployment Rates on
          A-07-12-11209                                                                 7/16/2013
                           the Social Security Administration's Disability Programs

                           Single Audit of the New Mexico Public Education
          A-77-13-00013                                                                 8/7/2013
                           Department for the Fiscal Year Ended June 30, 2011

                           Single Decision Maker Model -- Authority to Make
          A-01-12-11218    Certain Disability Determinations Without a Medical          8/8/2013
                           Consultant Signature




34                                                                         April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                                 Semiannual Report to Congress




                            Reports with Non-Monetary Findings
                           October 1, 2012 - September 30, 2013
        Audit Number                             Report                               Issue Date

                         Employers Who Report Wages with Significant Errors in
        A-08-12-13036                                                                   8/9/2013
                         the Employee Name and Social Security Number
                         The Social Security Administration's Contract with Four,
        A-04-13-13046                                                                  8/27/2013
                         LLC
                      Congressional Response Report: The Social Security
        A-08-13-23094 Administration's Policy on Symptom Validity Tests in             9/17/2013
                      Determining Disability Claims

        A-01-13-13083 Social Security Administration Employees in the Military         9/23/2013

                         Potential Misuse of Foster Children’s Social Security
        A-08-12-11253                                                                  9/25/2013
                         Numbers

                         Social Security Numbers on Notices Maintained in the
        A-02-13-13040                                                                  9/27/2013
                         Online Retrieval System

                         Security Fence Around Social Security Administration
        A-15-13-23096                                                                  9/27/2013
                         Headquarters (Limited Distribution)

                      The Social Security Administration's Plan to Reduce
        A-15-13-13105 Improper Payments Under Executive Order 13520, as                9/30/2013
                      Reported in March 2013




April 1, 2013 - September 30, 2013                                                                         35

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
Semiannual Report to Congress




                                        Reports with Questioned Costs
                                October 1, 2012 - September 30, 2013

           Audit Number    Issue Date                         Report                         Dollar Amount

           A-01-11-01120   10/3/2012     Beneficiaries Incorrectly Identified as Prisoners         $59,706

                                         Claimant Representative Fees Paid but Not
           A-04-11-11102   10/5/2012                                                           $21,005,047
                                         Withheld from Title II Past-Due Benefits
                                         Supplemental Security Income Recipients
           A-01-11-01135   10/12/2012    Whose Medicare Benefits Were Terminated Due              $405,357
                                         to Death
                                         Supplemental Security Income Applicants with
           A-02-10-20128   10/26/2012    Earnings Received After Their Disability Onset         $5,597,500
                                         Dates and Before Favorable Hearing Decisions

                                         Termination of Disability Benefits Following
           A-07-12-11211   11/1/2012     a Continuing Disability Review Cessation              $83,583,935
                                         Determination

                                         Supplemental Security Income Recipients
           A-01-12-21238   12/10/2012                                                          $44,553,360
                                         Eligible for, or Receiving, Russian Pensions

                                         Deceased Beneficiaries Who Had Different
                                         Dates of Death on the Social Security
           A-09-12-11220   12/10/2012                                                           $6,707,811
                                         Administration's Numident and Payment
                                         Records

                                         Accumulated Funds Payable to Beneficiaries or
           A-09-12-21236   12/11/2012                                                         $29,935,853
                                         Their Representative Payees

                                         The Social Security Administration's
           A-02-11-11185   12/20/2012    Development of Earnings Alerts for                   $110,142,700
                                         Supplemental Security Income Recipients
                                         Personnel Costs and Hiring Practices of the
           A-04-12-22135   12/20/2012                                                               $7,097
                                         Georgia Disability Adjudication Services

                                         Childhood Disability Beneficiaries with an
           A-09-11-21158   12/20/2012                                                           $7,333,126
                                         Incorrect Waiting Period

                                         Dually Entitled Beneficiaries Who Are Subject
           A-09-12-11210   1/31/2013     to the Windfall Elimination Provision and            $215,457,523
                                         Government Pension Offset
                                         Usefulness of Department of Homeland Security
                                         Travel Data to Identify Supplemental Security
           A-01-11-01142    2/1/2013                                                          $152,200,827
                                         Income Recipients Who Are Outside the United
                                         States
                                         Controls over the Issuance of Supplemental
          A-09-11-21194    3/21/2013                                                          $55,342,288
                                         Security Income Installment Payments

                                         Adjustments to Widow’s Benefits at Full
          A-01-12-11299    3/22/2013                                                            $7,661,824
                                         Retirement Age




36                                                                           April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                                 Semiannual Report to Congress




                                  Reports with Questioned Costs
                          October 1, 2012 - September 30, 2013

     Audit Number    Issue Date                        Report                         Dollar Amount

                                     Payee Assistance Management, Inc., an
    A-06-12-11261     3/27/2013      Organizational Representative Payee for the           $20,844
                                     Social Security Administration

                                     Adjustment of Disabled Wage Earners'
    A-09-12-11264     5/17/2013                                                          $2,209,420
                                     Benefits at Full Retirement Age

                                     Administrative Costs Claimed by the
    A-04-12-11298     5/22/2013                                                          $1,307,757
                                     Tennessee Disability Determination Services

                                     Payments to Individuals Whose Numident
    A-06-12-11291     6/21/2013                                                        $30,956,695
                                     Record Contained a Death Entry

                                     Payments Resulting from Disability
     A-04-11-01114    6/28/2013      Insurance Actions Processed Via Manual            $56,740,267
                                     Adjustment, Credit and Award Processes

                                     Protection and Advocacy Agencies' Reviews
    A-13-12-12119     8/22/2013                                                               $618
                                     of Organizational Representative Payees

                                     Using Bank Data to Identify Supplemental
    A-01-12-11223     9/5/2013       Security Income Recipients with Potential         $54,862,015
                                     Overpayments
                                     Bonus Payments to California Disability
    A-09-12-21248     9/11/2013                                                           $292,822
                                     Determination Services' Employees

      Total		                                                                          $886,384,392




April 1, 2013 - September 30, 2013                                                                         37

                                            BackBack
                                                 to Table
                                                     to Tableof Contents
                                                             of Contents
Semiannual Report to Congress




                                Reports with Funds Put to Better Use
                             October 1, 2012 - September 30, 2013

        Audit Number     Issue Date                      Report                       Dollar Amount
                                      Supplemental Security Income Recipients
         A-01-11-01135   10/12/2012   Whose Medicare Benefits Were Terminated              $214,303
                                      Due to Death
                                      Supplemental Security Income Recipients
         A-01-12-21238   12/10/2012                                                      $5,134,041
                                      Eligible for, or Receiving, Russian Pensions

                                      Genesis Eldercare Catonsville Commons, an
         A-13-12-11267   12/10/2012   Organizational Representative Payee for the            $5,863
                                      Social Security Administration
                                      Accumulated Funds Payable to Beneficiaries
        A-09-12-21236                                                                    $4,031,088
                                      or Their Representative Payees

                                      Dually Entitled Beneficiaries Who Are Subject
         A-09-12-11210   1/31/2013    to the Windfall Elimination Provision and         $12,652,302
                                      Government Pension Offset

                                      Adjustments to Widow's Benefits at Full
         A-01-12-11299   3/22/2013                                                      $30,461,596
                                      Retirement Age

                                      Adjustment of Disabled Wage Earners'
         A-09-12-11264   5/17/2013                                                       $1,377,987
                                      Benefits at Full Retirement Age

                                      Administrative Costs Claimed by the
         A-04-12-11298   5/22/2013                                                         $538,789
                                      Tennessee Disability Determination Services

                                      Payments to Individuals Whose Numident
         A-06-12-11291   6/21/2013                                                      $14,985,852
                                      Record Contained a Death Entry

                                      Payments Resulting from Disability
         A-04-11-01114   6/28/2013    Insurance Actions Processed Via Manual            $56,740,267
                                      Adjustment, Credit and Award Processes
                                      Child Support and the Supplemental Security
         A-01-12-11219   7/25/2013                                                    $302,400,000
                                      Income Program
                                      KDC Income Management, a Fee-for-
        A-13-13-13013    8/22/2013    Service Representative Payee for the Social            $6,500
                                      Security Administration

                                      Disabled Individuals with Mental Impairments
        A-07-12-21265    9/23/2013                                                       $1,117,968
                                      Acting as a Representative Payee

                                      Supplemental Security Income High-error
         A-07-12-11263   9/30/2013                                                    $228,563,886
                                      Profile Redeterminations


          Total		                                                                      $658,230,442




38                                                                       April 1, 2013 - September 30, 2013

                                        BackBack
                                             to Table
                                                 to Tableof Contents
                                                         of Contents
                                                                               Semiannual Report to Congress




Appendix C: Reporting Requirements Under the
Omnibus Consolidated Appropriations Act of FY 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208,
we are providing requisite data for the second half of FY 2013 from the Offices of Investigations
and Audit in this report.
Office of Investigations
We are reporting over $54 million in SSA funds as a result of our investigative activities in this
reporting period (4/1/13-9/30/13). These funds are broken down in the table below.

                                           Investigative Activities

                    1st Quarter      2nd Quarter           3rd Quarter           4th Quarter
                                                                                                        Total
                10/1/012- 12/31/12 1/1/013- 3/31/13      4/1/013- 6/30/13     7/1/013- 9/30/13

    Court
   Ordered          $9,326,659          $9,801,728          $12,108,615          $10,468,115        $41,705,117
  Restitution

 Recoveries        $13,445,935         $15,576,329          $12,663,792          $13,217,545        $54,903,601


    Fines           $1,457,075          $1,551,113           $2,456,133           $2,955,477         $8,419,798


 Settlements/
 Judgments           $827,647            $565,411             $563,621            $439,025           $2,395,704


   TOTAL           $25,057,316         $27,494,581          $27,792,161          $27,080,162       $107,424,220



Office of Audit
SSA management informed us that the Agency has completed implementing recommendations from 7 audit
reports during this period valued at over $109 million.
KDC INCOME MANAGEMENT, A FEE-FOR-SERVICE REPRESENTATIVE PAYEE FOR THE SOCIAL
SECURITY ADMINISTRATION (A-13-13-13013, 8/22/2013)
We recommended that SSA instruct KDC Income Management on how to distribute approximately $6,500 in
Social Security payments to specific beneficiaries. The implemented value of this recommendation is $6,500.




April 1, 2013 - September 30, 2013                                                                              39

                                            BackBack
                                                 to Table
                                                     to Tableof Contents
                                                             of Contents
Semiannual Report to Congress



PAYMENTS TO INDIVIDUALS WHOSE NUMIDENT RECORD CONTAINED A DEATH ENTRY
(A-06-12-11291, 6/21/2013)
We recommended that SSA verify the beneficiaries’ current status and take appropriate action to remove erroneous
death entries or terminate benefits. If applicable, SSA should also recover improper payments and refer potential
instances of fraud to our Office of Investigations. The implemented value of this recommendation is $14,985,852.
ACCUMULATED FUNDS PAYABLE TO BENEFICIARIES OR THEIR REPRESENTATIVE PAYEES
(A-09-12-21236, 12/11/2012)
We recommended that SSA remind employees to review the ability of certain representative payees to manage
accumulated funds over $4,000 and document the results of SSA’s review in its records. The implemented value
of this recommendation is $4,031,088.
NEW YORK STATE DISABILITY DETERMINATION PROGRAM INDIRECT COSTS (A-02-11-11135, 5/21/2012)
We recommended that SSA instruct the New York State Office of Temporary and Disability Assistance to refund
the $201,391 in unallowable, not properly allocated, or inaccurate costs we identified. The implemented value
of this recommendation is $120,683.
ADMINISTRATIVE COSTS CLAIMED BY THE NORTH CAROLINA DISABILITY DETERMINATION SERVICES
(A-04-11-01115, 5/14/2012)
We recommended that SSA instruct the North Carolina Disability Determination Services (DDS)to revise costs
claimed on the Forms SSA-4513 to account for the State credits; $5,350 in FY 2009 and $2,342 in FY 2010. The
implemented value of this recommendation is $7,692.
INDIVIDUALS RECEIVING SOCIAL SECURITY CARDS AFTER BENEFITS HAVE BEEN SUSPENDED (A-09-
09-29004, 3/26/2010)
We recommended that SSA take corrective action to resolve the beneficiary suspensions and pay any benefits
due the 147 beneficiaries identified by our audit. The implemented value of this recommendation is $700,052.
IMPROPER PAYMENTS RESULTING FROM UNRESOLVED DELAYED CLAIMANTS (A-09-08-18006, 9/25/2009)
We recommended that SSA improve controls to ensure that delayed claims are resolved within appropriate time
frames. The implemented value of this recommendation is $67,685,300.
We recommended that SSA identify and take corrective action on the population of delayed claims that have been
pending more than 90 days. The implemented value of this recommendation is $21,968,171.




40                                                                           April 1, 2013 - September 30, 2013

                                            BackBack
                                                 to Table
                                                     to Tableof Contents
                                                             of Contents
                                                                          Semiannual Report to Congress



Appendix D: Significant Management Decisions With Which the
Inspector General Disagrees
DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS ACTING AS A REPRESENTATIVE PAYEE
(A-07-12-21265, 9/23/2013)
Results of Review: Our review of 105 representative payees receiving Disability Insurance (DI) or
Supplemental Security Income (SSI) because of a mental impairment identified 22 who may have been
incapable of managing or directing the management of their benefits and those of the beneficiaries
for whom they served as representative payees. Further, of the 105 representative payees, we were
unable to interview 17. Based on these results, we question the suitability of 39 (37 percent) of the
105 representative payees and estimate that benefits totaling approximately $866,000 may be at risk
of misuse or improper use during a 1-year period.
In addition, 23 representative payees may no longer have been medically eligible for disability benefits.
If these 23 representative payees have medically improved and are no longer eligible to receive benefits,
we estimate that benefits totaling over $252,000 will be improperly paid during a 1-year period.
Recommendation: Contact the 17 representative payees we could not interview to determine whether
they are capable of managing their own benefits and those for the beneficiaries they serve.
Agency Response: SSA disagreed with the recommendation and stated that the Agency plans to contact
the one payee mentioned in our report who stated she no longer managed the beneficiary’s money, and
the Agency will appoint a new payee if appropriate. SSA also plans to contact the 12 beneficiaries who
did respond to the OIG’s request to verify they are still functioning as payees. However, SSA stated
there is no reason to question the remaining four representative payees on their ability to manage their
own benefits or those of the beneficiaries they serve simply because they declined to participate in
OIG’s review.
OIG Response: We continue to believe SSA should contact the four individuals who declined to participate
in our review. Based on prior OIG audits and investigations, we do not believe it is prudent for SSA to
assume these individuals are capable of managing or directing the management of their benefits and
those of the beneficiaries for whom they serve as representative payee. Given the limited resources it
would take for SSA to contact these four individuals, we would encourage SSA to take advantage of the
opportunity to ensure these individuals are capable.




April 1, 2013 - September 30, 2013                                                                    41

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
Semiannual Report to Congress



Appendix E: Collections from Investigations and Audits
The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report additional
information concerning actual cumulative collections and offsets achieved as a result of OIG activities
each semiannual period.

Office of Investigations

               Total Restitution Reported by DOJ as Collected for SSA

                                 Total Number
                                                               Court Ordered
                                  of Individuals                                       Total Restitution
               FY                                              Restitution for
                                Assigned Court                                         Collected by DOJ
                                                                This Period
                               Ordered Restitution
             2011                         550                    $26,408,142              See Footnote1

             2012                         580                    $35,388,290              See Footnote1

             2013                         532                    $35,549,341              See Footnote1

            TOTAL                        1,662                   $97,345,773              See Footnote1

1
    DOJ migrated collection data to a new computer system and is working to generate points that will provide us with this information



                 Recovery Actions Based on OI Investigations

                        Total Number of Recovery
          FY                                                        Amount for Recovery
                             Actions Initiated

        2011                          1,310                                         $45,989,019

        2012                          1,382                                         $53,354,863

        2013                          1,622                                         $54,903,601

       TOTAL                          4,314                                       $154,247,483




42                                                                                             April 1, 2013 - September 30, 2013

                                                        BackBack
                                                             to Table
                                                                 to Tableof Contents
                                                                         of Contents
                                                                                         Semiannual Report to Congress



Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
questioned and unsupported costs. This information is prepared in coordination with SSA’s management
officials and was current as of September 30, 2013.


                        SSA’s Responses to OIG’s Recommendations
                  Recovery or Redirection of Questioned and Unsupported Costs1
           Reports with Questioned/                            Amount
                                           Management                         Amount Written-
  FY       Questioned Unsupported                           Collected or to                        Balance2
                                           Concurrence                        Off/Adjustments
             Costs        Costs                             be Recovered

  2011          28      $1,587,604,454 $1,572,008,116         $55,685,906        $79,008,858 $1,452,909,690


 2012           29      $1,170,466,288     $863,192,986      $136,808,843      $292,413,282      $741,244,163


 2013           23        $886,384,392     $333,708,163          $952,554       $67,583,587      $817,848,251


 TOTAL          80      $3,644,455,134 $2,768,909,265        $193,447,303      $439,005,727     $3,012,002,104

  1
      The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the OIG.
  2
      Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/Adjustments




April 1, 2013 - September 30, 2013                                                                                       43

                                                  BackBack
                                                       to Table
                                                           to Tableof Contents
                                                                   of Contents
Semiannual Report to Congress



APPENDIX F: Significant Monetary Recommendations From Prior
FYs for Which Corrective Actions Have Not Been Completed
DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS IN NEED OF A REPRESENTATIVE PAYEE
(A-07-11-11110, 9/27/2012)
Results of Review: We estimated that over 208,000 of the 895,151 mentally impaired beneficiaries in our
population received over $200 million in monthly benefits and may have been incapable of managing or
directing the management of their benefits. If these beneficiaries are, in fact, in need of a representative
payee, we further estimate over $2.4 billion in benefits will be at risk of inappropriate use, annually.
SSA policy states that it must remain alert to indications of a change in a beneficiary’s condition or
circumstances that might indicate a need for a new capability determination. However, over $2.4 billion
in benefits may be at risk of inappropriate use because SSA does not have a process to identify mentally
impaired beneficiaries who become incapable of managing or directing the management of their benefits
after their initial entitlement.
In addition, we estimated that approximately $2 million in monthly benefits are at risk because 6,076
beneficiaries received benefits under both the DI and SSI programs, but only have a representative payee
assigned for 1 of the programs. If these beneficiaries are, in fact, in need of a representative payee,
we further estimate approximately $24 million in benefits will be at risk of inappropriate use, annually.
Recommendation: Determine whether the 6,076 concurrent beneficiaries should have their benefits
paid directly or through a representative payee.
Agency Response: SSA agreed with the recommendation.
Valued at: $23,717,592 in funds put to better use.
Corrective Action: SSA expects to determine whether the 6,076 beneficiaries should have their benefits
paid directly or through a representative payee in Calendar Year 2013.
Recommendation: Perform a capability determination for the 64 beneficiaries we identified as possibly
incapable of managing or directing the management of their benefits.
Agency Response: SSA agreed with the recommendation.
Valued at: $2,404,112,052 in funds put to better use.
Corrective Action: SSA expected to complete capability determinations for the 64 beneficiaries in FY
2013, however, the Agency has not confirmed that they were completed.
DISABLED INDIVIDUALS POTENTIALLY ELIGIBLE AS AUXILIARY CHILD BENEFICIARIES (A-13-
10-10146, 6/12/2012)
Results of Review: Although SSA had taken actions to identify and prevent missed entitlements, we
identified SSI recipients who were also eligible for Old-Age, Survivors and Disability Insurance (OASDI).
Our analysis of 100 SSI recipients found 95 were eligible for OASDI as auxiliary child beneficiaries. Of
these, we identified 16 SSI recipients who were due OASDI underpayments totaling about $71,000.
We estimate approximately 2,160 SSI recipients were eligible for OASDI and were due underpayments
totaling approximately $9.6 million.
In February 2012, we identified 14,434 SSI recipients—from all 20 segments of SSA’s records—who
were potentially entitled disabled child beneficiaries. We provided this information to the Agency for
corrective action.
Recommendation: Develop and implement a cost-effective strategy to assess the 14,434 recipients
we identified to correctly pay those recipients eligible for OASDI as auxiliary child beneficiaries and pay
the OASDI underpayments due the recipients, as appropriate.
Agency Response: SSA agreed with the recommendation.



44                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                          Semiannual Report to Congress



Valued at: $9,582,380 in questioned costs.
Corrective Action: As resources allow, SSA will review the 14,434 cases. The review will involve SSA
field offices and processing centers analyzing and developing each case. SSA expects processing
these cases will take some time, due to the volume and complexity of these cases. The Agency expects
to complete its determinations, and pay any OASDI underpayments by the end of FY 2013, or early FY
2014.
INDIVIDUAL REPRESENTATIVE PAYEES WHO MISUSE BENEFITS (A-13-10-10182, 5/4/2012)
Results of Review: SSA did not always take appropriate actions concerning individual representative
payees who were serving 14 or fewer beneficiaries and who misused benefit payments. Specifically, the
Agency did not always obtain restitution from payees when it could use benefit adjustment to do so; pay
beneficiaries when Agency negligence was determined; document negligence decisions; refer instances
of misuse to the Office of the Inspector General; make restitution to beneficiaries when misused funds
were collected in installments from payees; follow policy regarding retention of payees who commit
misuse; and record misuse-related data accurately in the Representative Payee System.
SSA had taken actions intended to improve its oversight and management of these payees. In October
2011 and January 2012, SSA released versions of its Electronic Representative Payee System Misuse
System and revised its policies. However, SSA needs to take additional actions to improve its oversight
and management of individual representative payees serving 14 or fewer beneficiaries who misused
benefit payments.
Recommendation: Use, when appropriate, benefit adjustment to obtain restitution from the 408 payees
we identified to recover about $2.1 million in misused funds.
Agency Response: SSA agreed with the recommendation.
Valued at: $2,112,581
Corrective Action: SSA stated that the field offices and processing centers require additional time to
take action on the 408 cases OIG identified. The Agency expected to complete needed actions by the
end of FY 2013; however, SSA has not confirmed that they were completed.
ANNUAL EARNINGS TEST UNDERPAYMENTS PAYABLE TO BENEFICIARIES (A-09-11-11128,
4/6/2012)
Results of Review: SSA improperly paid beneficiaries whose Master Beneficiary Record (MBR) annual
report data exceeded their earnings on the Master Earning File (MEF). We estimated that SSA improperly
paid 10,644 beneficiaries about $15 million during Calendar Years 2005 through 2008. In addition,
unless SSA revises the Earnings Enforcement Operation (EEO), we estimated it would improperly pay
about $3.7 million, annually, to 2,661 beneficiaries.
The improper payments occurred because SSA’s policy is to exclude from the EEO beneficiaries whose
MBR annual report data exceeded the earnings recorded on SSA’s MEF. Finally, we found that SSA
should not rely on the annual report data on the MBR to determine whether beneficiaries were properly
paid. Specifically, we found that annual report data on the MBR (1) were estimated amounts, (2) contained
obvious recording errors, and (3) included earnings that were not subject to the annual earnings test.
Recommendation: Review its policies, procedures, and systems concerning earnings and benefit
computations to provide accurate results for Title II beneficiaries.
Agency Response: SSA agreed with the recommendation.
Valued at: $3,754,533 in funds put to better use.
Corrective Action: While SSA’s Office of Systems completed the migration of Automated Job Stream 3
to Title II Redesign in August 2012, there was a release to correct issues with the month of entitlement
and rates in February 2013. The first enforcement pass after this release took place in May 2013. SSA



April 1, 2013 - September 30, 2013                                                                    45

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
Semiannual Report to Congress



policy staff is revising all of the month of entitlement POMS, which should be completed by the end of
the calendar year. After this revision is released, the Agency will evaluate the outcome of this first pass
to the Master Earnings File and the available resources, and SSA will determine if it will conduct a study.
TITLE II BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED AND WHO HAVE A DATE
OF DEATH ON THE NUMIDENT (A-09-10-10117, 4/28/2011)
Results of Review: SSA needs to improve controls to ensure it takes timely and proper actions to resolve
death information on the Numident for suspended beneficiaries. We estimate that:
•	 4,699 beneficiaries remained in suspended pay status despite the death information on their Numident.
   Of these, we estimate 2,976 were improperly paid approximately $23.8 million.
•	 2,715 beneficiaries’ personally identifiable information was at risk of being released to the public.
•	 157 beneficiaries whose benefits were terminated were improperly paid $342,114.
Recommendation: Identify and take correction action on the remaining population of 6,277 suspended
beneficiaries who had a date of death on the Numident.
Agency Response: SSA agreed with the recommendation.
Valued at: $22,855,376 in questioned costs.
Corrective Action: SSA is working to review and terminate the identified cases as appropriate.
Recommendation: Take appropriate action to terminate benefits or remove erroneous death information
from the Numident for the 180 beneficiaries identified by our audit.
Agency Response: SSA agreed with the recommendation.
Valued at: $910,282 in questioned costs.
Corrective Action: SSA is working with its Office of Budget, Finance, Quality, and Management (OBFQM)
on an automated solution for taking corrective action on these records. No date has been provided
by OBFQM since the Agency is still in the process of addressing systems issues, notice suppression
issues, etc.
BENEFITS PAYABLE TO CHILD BENEFICIARIES WHO NO LONGER NEED REPRESENTATIVE
PAYEES (A-09-09-29116, 8/20/2010)
Results of Review: SSA needed to improve controls to ensure child beneficiaries who attained age 18
were paid benefits that had been previously withheld pending the selection of a representative payee.
Based on a random sample of beneficiaries, we found that SSA did not pay an estimated 13,464
beneficiaries approximately $31.2 million in withheld benefits.
Generally, these errors occurred because SSA did not generate a systems alert to identify beneficiaries
who should have been paid withheld benefits when they attained age 18 or SSA employees did not take
corrective actions to pay withheld benefits when processing student awards when a child attained age 18.
Recommendation: Identify and take corrective action on the population of child beneficiaries over age
18 whose benefits were withheld pending the selection of a representative payee.
Agency Response: SSA agreed with the recommendation.
Valued at: $31,052,839 in questioned costs.
Corrective Action: The processing centers (PC) have reviewed 13,679 of the 13,739 records. Once the
PCs complete their case reviews, SSA plans to send come-in notices as part of a mass Central Office
mailing to the individuals for whom 1) underpayments are due and 2) SSA has addresses from an Office
of the Chief Actuary/OBFQM automated search.




46                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                           Semiannual Report to Congress



FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER SUSPENDING
COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS (A-04-09-19039, 9/2/2009)
Results of Review: SSA took action on three of the recommendations in our prior report. However,
funding limitations delayed development of an automated system that would address the two remaining
recommendations. SSA’s corrective actions resulted in some improvements in the error rates we previously
reported. However, we still found similar conditions to those identified in the prior report.
We also found that SSA did not always (1) document the justification for the decisions to suspend
overpayment collection efforts and (2) obtain the required management approval before suspending an
overpayment. On occasion, SSA personnel suspended collection efforts when debtors or the debtors’
representative payees had reported earnings that may have enabled some repayment. Also, SSA
personnel suspended collections of some debts and classified the debtors as unable to locate or out of the
country even though we did not find evidence that SSA attempted to contact the debtors or the debtors’
representative payees through their current employer. Overall, we estimated for 6,500 cases, totaling
$52.2 million, SSA personnel did not follow policies and procedures when it suspended overpayment
collection efforts.
Recommendation: Consider revising the May 2009 policy to require the 2-PIN process management
approval for suspension decisions controlled by the Recovery and Collection of Overpayment Process.
Valued at: $22,639,420 in funds put to better use.
Agency Response: SSA agreed with the recommendation.
Corrective Action: The Office of Systems (OS) is currently working on changing screens to be 508
compliant when time and resources permit but have not gotten to this system yet. During the 508
changes, it may be possible to include other changes to the screen, which include a management approval
process. FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS REPORTED ON
THE MASTER EARNINGS FILE (A-01-08-28075, 4/15/2009)
Results of Review: Our audit found that the Agency made efforts to reduce overpayments resulting from
work activity. However, we found that SSA did not evaluate all earnings, and as a result, overpayments
resulted from work activity.
Based on our review, we estimate that approximately $3.1 billion was overpaid to about 173,000 disabled
beneficiaries because of work activity. Although SSA identified about 58 percent of these overpayments,
we estimate the remaining 42 percent—approximately $1.3 billion—went undetected by the Agency to
about 49,000 disabled beneficiaries. In addition, we estimate SSA will continue to incorrectly pay about
$382 million over the next 12 months to individuals who are no longer entitled to disability benefits if
action is not taken by the Agency.
SSA performed 170,664 work-related continuing disability reviews (CDR) in 2008 at a unit cost of
$397.45. Based on our review, we estimate about $3.1 billion was overpaid to approximately 173,000
disabled beneficiaries (out of 518,080 in the estimated universe) because of work activity. To perform
work-related CDRs for all 518,080 disabled beneficiaries, it would cost SSA about $206 million (assuming
the $397.45 unit cost remains the same). This results in a potential benefit-cost ratio of $15.0 to $1.0.
We recognize SSA’s efforts to improve the work-related CDR process. In addition, we acknowledge the
Agency’s limited resources with which to perform this workload. However, we believe SSA may achieve
greater savings in the long-term if the Agency could provide the resources to perform work-related CDRs
for all disabled beneficiaries with substantial earnings reported on the Master Earnings File.
Recommendation: Develop and implement a plan to allocate more resources to timely perform work-
related continuing disability reviews—and assess overpayments resulting from work activity—for cases
identified by the Agency’s earnings enforcement process.
Valued at: $1,335,815,580 in questioned costs and $381,563,100 in funds put to better use.
Agency Response: SSA agreed with the recommendation.


April 1, 2013 - September 30, 2013                                                                     47

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
Semiannual Report to Congress



Corrective Action: SSA made the following improvements to the Agency’s work-related CDR processes
and management information.
• SSA established a dedicated staff, which targets the oldest cases.
• SSA now prioritizes enforcement alerts (for cases with unreported earnings) by the amount of earnings.
SSA works the cases with highest earnings first to minimize overpayments.
• SSA improved communications between its field offices and processing centers for priority cases that
must be transferred between components.
• SSA established an Agency standard report for work CDR management information and overpayments.
It is currently in the final stages of validation.
• SSA is establishing streamlined earnings reporting processes via telephone and Internet.
In addition, as recommended by the Government Accountability Office, SSA is evaluating the feasibility of:
• Periodically matching disability beneficiaries and recipients to Federal payroll data.
• Using the Automated Earnings Reappraisal Operation to identify individuals who have returned to work.

Significant Monetary Recommendations From Prior Semiannual Report
to Congress for Which Recent Corrective Actions Have Been Made
DISABILITY INSURANCE AND SUPPLEMENTAL SECURITY INCOME CLAIMS ALLOWED BUT NOT
PAID (A-01-10-10177, 6/20/2011)
Results of Review: Based on SSA’s review of the cases we identified and referred to the Agency, SSA
staff determined that some claimants were eligible for benefits but not paid.
Recommendation: Complete its work on the remaining cases of the 1,847 unpaid claimants we identified
and ensure all past due benefits are paid to beneficiaries as appropriate.
Agency Response: SSA agreed with the recommendation.
Valued at: $8,921,121 in questioned costs.
Corrective Action: SSA completed work on 1,837 of 1,847 cases (99.5 percent) and paid $18,058,838
in underpayments.
RETROACTIVE TITLE II PAYMENTS TO RELEASED PRISONERS (A-06-08-38081, 7/14/2010)
Results of Review: SSA issued improper or questionable retroactive payments to beneficiaries after their
release from prison. About half the retroactive payment transactions of $10,000 or more we reviewed
were either improper or issued without any explanation or justification documented. SSA did not establish
sufficient controls to ensure large retroactive payments to released prisoners were valid. Specifically,
SSA payment systems allowed SSA personnel to compute and issue large retroactive payments without
explanation or justification and without supervisory review. The lack of sufficient controls over these
payments increased the potential for fraud, waste, or abuse.
Based on our sample results, we estimate that SSA issued approximately $10.3 million in retroactive
payments to prisoners that were either incorrect or could not be explained based on available
documentation.
Recommendation: Establish controls to ensure employees explain and justify large retroactive payments
issued to released prisoners.
Agency Response: SSA agreed with the recommendation.
Valued at: $6,468,914 in questioned costs.
Corrective Action: Effective May 18, 2013, the Prisoner Update Processing System system will bring
the Prisoner Remark screen into the path when inputting either:


48                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                         Semiannual Report to Congress



• Reinstatements
• Clear Control – no suspension necessary
• Clear Control – erroneous person, through the Title II Post-Entitlement System
RECOVERY OF TITLE II PAYMENTS ISSUED AFTER BENEFICIARIES’ DEATHS (A-09-10-11037,
1/4/2011)
Results of Review: SSA needs to improve its controls and procedures to ensure that appropriate and
timely actions are taken to recover payments issued after beneficiaries’ deaths. Based on a random
sample of 200 beneficiaries, we estimate about
• $18.8 million in payments after death was not recovered or properly resolved for approximately 25,940
deceased beneficiaries, and
• $34.8 million in payments after death that had been recovered or properly resolved needed to be
removed as overpayments from SSA’s records for approximately 17,520 deceased beneficiaries.
Recommendation: Evaluate the results of its corrective actions for the 68 errors and determine whether
the Agency should review the population of 6,486 deceased beneficiaries with payments after death.
Agency Response: SSA agreed with the recommendation.
Valued at: $18,787,948 in questioned costs.
Corrective Action: Based on the results of the review of the 68 errors, SSA determined that action on
the population of 6,486 deceased beneficiaries is not necessary. SSA has a 3-year period to request a
debit of an account for payments disbursed after death. If the Agency does not request the debit within
3 years, the request is rejected and not processed. This time has elapsed for many of these cases. It
would not be cost effective to review over 6,000 cases when SSA would only be able to recover limited
money.




April 1, 2013 - September 30, 2013                                                                  49

                                        BackBack
                                             to Table
                                                 to Tableof Contents
                                                         of Contents
Semiannual Report to Congress



APPENDIX G: Significant Non-Monetary Recommendations From
Prior FYs for Which Corrective Actions Have Not Been Completed
DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS IN NEED OF A REPRESENTATIVE PAYEE
(A-07-11-11110, 9/27/2012)
Results of Review: We estimate that over 208,000 of the 895,151 mentally impaired beneficiaries in our
population received over $200 million in monthly benefits and may have been incapable of managing or
directing the management of their benefits. If these beneficiaries are, in fact, in need of a representative
payee, we further estimate over $2.4 billion in benefits will be at risk of inappropriate use, annually.
SSA policy states that it must remain alert to indications of a change in a beneficiary’s condition or
circumstances that might indicate a need for a new capability determination. However, over $2.4 billion
in benefits may be at risk of inappropriate use because SSA does not have a process to identify mentally
impaired beneficiaries who become incapable of managing or directing the management of their benefits
after their initial entitlement.
In addition, we estimate that approximately $2 million in monthly benefits are at risk because 6,076
beneficiaries received benefits under both the DI and SSI programs, but only have a representative payee
assigned for 1 of the programs. If these beneficiaries are, in fact, in need of a representative payee,
we further estimate approximately $24 million in benefits will be at risk of inappropriate use, annually.
Recommendation: Contact the 72 beneficiaries whom we could not locate or refused to participate in
our review to verify their continued benefit eligibility and, if eligible, determine whether they are capable
of managing their benefits.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA expects to complete corrective action on this recommendation in Calendar Year
2013.
USING MEDICARE CLAIM DATA TO IDENTIFY DECEASED BENEFICIARIES (A-08-09-19105, 8/2/2012)
Results of Review: We believe SSA can use enhanced Medicare claim data to better identify deceased
beneficiaries using less time and fewer resources. For example, SSA either terminated or suspended
benefits of 44 (35 percent) of our 125 sample beneficiaries, which is significantly higher than the 5 percent
SSA found in its 2002 Medicare Non-Usage Project.
Based on our findings, we estimate that SSA overpaid 890 deceased beneficiaries about $99 million.
Further, we estimate that over the next 12 months, SSA will pay about $9 million in additional overpayments
to these deceased beneficiaries. In addition, we estimate that about 1,160 beneficiaries were living
outside the United States and did not report their address change to SSA, and about 190 beneficiaries’
whereabouts were unknown. These are conservative estimates because they exclude beneficiaries who
did not live near an OA field office. Furthermore, we believe it is likely that many of the beneficiaries
with suspended benefits are deceased. We reached this conclusion because they did not contact SSA
to reinstate their benefits.
Recommendation: Work the remaining 1,067 cases in our universe (who are in current payment status
and not part of the Centenarian Project) to determine whether these beneficiaries are alive.
Agency Response: SSA agreed with the recommendation.
Corrective Action: The Agency provided manager approval of the Project Scope Agreement, and will
address pending recommendations upon the first file exchange.
SIGNIFICANCE OF ADMINISTRATIVE FINALITY IN THE SOCIAL SECURITY ADMINISTRATION’S
PROGRAMS (A-08-11-21107, 7/26/2012)
Results of Review: As determined in our prior and current reviews, SSA cannot correct beneficiary and
recipients’ payment amounts when administrative finality applies. For example, we identified a beneficiary
receiving a full retirement benefit under her own Social Security number and another full benefit under

50                                                                        April 1, 2013 - September 30, 2013

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
                                                                             Semiannual Report to Congress



her deceased spouse’s Social Security number that resulted in an $870 monthly overpayment. The
overpayments started in July 1982 and created a total overpayment of approximately $215,000. Since
our 2007 recommendation to revise its administrative finality rules—which SSA disagreed with—the
Agency has paid this beneficiary approximately an additional $40,000. Because of SSA’s administrative
finality rules, it will not reopen this case and this overpayment will continue increasing throughout the
beneficiary’s lifetime.
Given the recent Government initiative to reduce improper spending and waste of Federal funds and
the current economic environment, we do not believe SSA’s administrative finality rules comply with the
initiative. SSA should revise its administrative finality rules and allow for revisions to payments to ensure
the beneficiary or recipient receives only the amount they are due. We believe it is the appropriate
business process to ensure the integrity of program funds as these payments affect the trust funds.
Recommendation: Evaluate its administrative finality policies and regulations and consider revising the
rules to allow for the collection of more debt.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA is still considering four proposals for changing the rules of administrative finality.
In July 2013, the Agency published a Federal Register Notice to solicit comments from the public on
these proposals. The comment period ended on September 30, 2013.


THE SOCIAL SECURITY ADMINISTRATION’S SOFTWARE MODERNIZATION AND USE OF COMMON
BUSINESS ORIENTED LANGUAGE (A-14-11-11132, 5/17/2012)
Results of Review: SSA does not have a strategic plan to convert its legacy COBOL application programs
to a more modernized programming language. Nonetheless, the Agency has developed an approach
to gradually reduce its reliance on COBOL for its core processing of program transactions, such as
retirement and disability claims.
While the Agency has moved forward in modernizing its information technology environment, several
factors limit the Agency’s ability to operate efficiently and improve service delivery. At a minimum, SSA
should address the following factors in its modernization roadmap: (1) projected future service delivery
demands; (2) growth of information technology and maintenance costs; (3) loss of institutional legacy
programming knowledge; (4) lack of integrated business processes; and (5) outdated user interfaces.
Although these factors are not unique to COBOL, SSA relies on COBOL applications to deliver its core
services. Therefore, the Agency’s use of COBOL impacts its current system environment and its system
modernization path.
Recommendation: Develop a comprehensive, long-term strategic plan to modernize SSA’s legacy
applications. This plan should:
•	 include a target timeframe and estimated resources to modernize SSA’s existing environment;
•	 include an in-depth analysis of projected service delivery demands and how new approaches and
   technology can promote greater productivity while meeting customer expectations for service;
•	 position the Agency to maximize the effectiveness and cost-efficiency of its systems over the long-
   term; and
•	 be reevaluated over time and revised as necessary.
Agency Response: SSA agreed with the recommendation.
Corrective Action: This recommendation is consistent with current guidance from the Office of Management
and Budget regarding the Federal Enterprise Architecture framework. While SSA expected to issue its
current Information Resource Management Strategic Plan during the second quarter of FY 2013, the
Agency has not confirmed that it was completed.



April 1, 2013 - September 30, 2013                                                                        51

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
Semiannual Report to Congress



STATE DISABILITY DETERMINATION SERVICES’ EMPLOYEE AND CONTRACTOR SUITABILITY
PROGRAM (A-15-11-21180, 12/21/2011)
Results of Review: Although SSA had a limited policy in place that required a statewide criminal
background check, we noted a number of vulnerable areas in the policy that could pose a risk to SSA
data and systems. State policy regarding suitability determinations for employees, contractors, and
other DDS staff varied widely from State to State. Some States had yet to implement a policy requiring
statewide criminal background checks. Additionally, although most States had a policy in place for
prospective employees, the policy did not require criminal background checks for existing employees.
SSA performed some oversight of the DDS suitability process. Regional Office staff should review
the DDS’ self-assessments, but beyond this, Regional Office staff stated they leave the suitability
determinations to the DDSs. According to SSA, Regional Office staff is responsible for conducting the
day-to-day monitoring of the DDSs.
Recommendation: Require all individuals with access to SSA systems and data to have an appropriate
suitability determination consistent with the requirements of SSA’s suitability program.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA’s Office of Disability Determinations expanded the implementation plan to roll
out HSPD 12 credentialing to 10 additional volunteer States. SSA began the process for the first 2 of
these states, and plans to have implemented in all 10 by the end of July 2014.
FOLLOW-UP: SURVIVOR BENEFITS PAID IN INSTANCES WHEN THE SOCIAL SECURITY
ADMINISTRATION REMOVED THE DEATH ENTRY FROM A PRIMARY WAGE EARNER’S RECORD
(A-06-10-20135, 9/1/2011)
Result of Review: SSA has made progress in completing corrective actions to address the recommendations
in our September 2006 report. SSA determined that 286 of the 307 wage earners identified during the
prior review were actually deceased. SSA confirmed that 14 wage earners were alive and took action
to terminate survivor benefit payments. SSA erroneously issued approximately $579,000 in survivor
benefits to family members of these wage earners. SSA could provide no documentation to indicate
completion of death verifications for the remaining seven individuals.
As part of our follow-up review, we identified an additional 642 wage earners whose family members
received survivor benefits even though SSA had deleted the wage earners’ death entries from the Death
Master File, and SSA’s Numident file indicated the wage earners were alive. At the time of our review,
SSA paid approximately $644,000 in monthly survivor benefits to family members of the 642 wage
earners. Our review of sampled records indicated that, similar to our 2006 findings, SSA employees who
deleted these death entries did not document pertinent facts to support or explain these transactions.
The resurrection transactions indicated the wage earners were alive, and survivor benefits were improper.
If the wage earners were actually deceased, SSA erroneously deleted their information from the Death
Master File.
Recommendation: Perform death verifications for each of the 642 records with survivor benefit payments
identified in this review and the 7 pending from our prior review and take appropriate action (for example,
terminate benefits and establish overpayments, refer potentially fraudulent cases to OIG, and/or reinstate
death entries).
Agency Response: SSA agreed with the recommendation.
Corrective Action: As of September 19, 2013, SSA had one case pending, which happens to be very
complicated. The Agency expects to resolve this soon.
AGED BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED FOR ADDRESS OR
WHEREABOUTS UNKNOWN (A-09-09-29117, 6/17/2011)




52                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                           Semiannual Report to Congress


Result of Review: SSA had not taken appropriate actions for Title II beneficiaries over age 70 whose
benefits were suspended for address, whereabouts unknown, or miscellaneous reasons. We estimate
that
•	 29,196 beneficiaries whose whereabouts were unknown for longer than 7 years had not been
   terminated based on a presumption of death;
•	 5,981 beneficiaries had been suspended between 2 and 7 years because their whereabouts were
   unknown; and
•	 2,964 foreign beneficiaries were suspended because they did not return the foreign enforcement
   questionnaire (FEQ), and there was no evidence that SSA conducted the required follow-up actions
   to determine their whereabouts or whether they were deceased.
Recommendation: Identify and terminate in accordance with the Social Security Administration’s
presumption of death policy, the entitlement of the estimated 29,196 beneficiaries whose whereabouts
were unknown and have been in suspended pay status for 7 or more years.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA developed a unique reason for suspension and termination code (RFST) of
AGETRM for use with ledger account file T9 (miscellaneous termination) to terminate certain title II
beneficiaries in suspense for whereabouts unknown for 7 or more years. As of September 2013, the
Office of Quality Performance used the code to manually terminate approximately 931 title II beneficiaries
and expects to terminate approximately 16,000 records by the end of December 2013. In FY 2014,
SSA’s goal is to automate the process and schedule periodic runs.
Recommendation: Take appropriate action (including termination of benefits) for the estimated 2,964
suspended beneficiaries living outside the United States who did not return the FEQ.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA’s Office of General Council agreed to a policy change to the FEQ procedure to
allow beneficiaries to move from the S9/Forenf suspension to S9/Whereu. The Office of International
Programs has completed the POMS rewrite for the policy change. The POMS is currently undergoing
internal review. SSA expected to submit this POMS section before the end of September 2013.
THE SOCIAL SECURITY ADMINISTRATION’S TIME ALLOCATION SYSTEM (A-14-10-20122, 4/18/2011)
Result of Review: Several events led to SSA’s decision to terminate the Time Allocation System (TAS).
Some of these events raised questions about SSA’s management of the TAS project, given that the
project was terminated without proper analysis to determine which Workload Management System
(DOWS or TAS) more accurately accounted for workload time measurements. We believe if SSA had
conducted sufficient project planning before initiating the TAS project, most, if not all, of the events we
identified could have been resolved before expending approximately $36 million of Agency resources.
We have organized our findings based on the Systems Development Life Cycle used by SSA.
• Planning and Analysis Phase
  - Insufficient Planning and Analysis Leading to the Termination of TAS
  - TAS Benefits and Costs Were Not Identified Timely
• Construction Phase
 - Insufficient Testing Due to Storage Constraints
• Post Release Phase
   -    No Post Implementation Review (PIR) after a system was in operation for 6 months,
       or after TAS was terminated, to determine reasons for the project’s failure.
• Maintenance Phase



April 1, 2013 - September 30, 2013                                                                      53

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
Semiannual Report to Congress


 - Inability to maintain TAS cost-effectively.
Recommendation: Take the necessary steps to validate the accuracy of the current work measurement
system or future replacements.
Agency Response: SSA agreed with the recommendation.
Corrective Action: The Agency simplified work sampling by eliminating obsolete categories and
consolidating categories with significant overlap. These changes went into effect at the beginning of
FY 2012. SSA updated the Management Information Manual chapters on work sampling to reflect the
category changes and rewrote sections that previously contained language that was vague, inconsistent,
and potentially confusing. SSA issued an Administrative Message, published on PolicyNet, to announce
and document the changes to work sampling. Separately, SSA also created a Work Sampling Guidance
document, published in the Management Resource Kit section of PolicyNet, to provide general instructions,
best practices, reminders, and other helpful information about the work sampling process.
In addition, SSA wrote a Video On Demand script for work sampling training, which the Agency is planning
to produce in the coming year. SSA is also in preliminary discussions with the Office of Systems, the
Office of Automation Support, and other Operations stakeholders about automating a portion of work
sampling by using a pop-up application that employees would use to report work activity instead of the
manual sampling process the Agency uses now.
The project to automate a portion of work sampling is moving forward, but the Agency is still in the early
planning stages. SSA expected to begin development in FY 2013, but a timeline for implementation
has not been confirmed.
Recommendation: Perform a PIR after a system has been in operation for 6 months and for all terminated
projects to determine reasons for the project’s termination.
Agency Response: SSA agreed with the recommendation.
Corrective Action: In support of conducting PIRs in FY 2013, SSA’s Office of Systems is in the process
of refining the policy and framework that was developed. SSA is comparing the PIR data requirements
against the Project Success Verification (PSU) process in order to identify the areas to enhance as
outlined in the OMB guidance. SSA continues to perform PSVs on the Agency’s completed projects.
IMPACT OF ALIEN NONPAYMENT PROVISIONS ON FIELD OFFICES ALONG THE MEXICAN BORDER
(A-08-10-20140, 2/15/11)
Results of Review: While we recognize current law requires that alien nonpayment provision (ANP)
beneficiaries routinely visit the United States to maintain their benefits, we believe this practice has a
significant impact on some field offices along the Mexican border. For example, we found that over 1,000
ANP beneficiaries visit some field offices monthly to establish presence in the United States. Providing
services to such a large volume of beneficiaries increases workload; adds to wait times; and, during
high traffic days, results in some office space issues. Furthermore, field office personnel at each office
we visited told us the number of ANP beneficiaries is increasing. For these reasons, some field office
personnel we interviewed questioned the need for ANP beneficiaries to routinely visit field offices.
Recommendation: Continue to work with the Department of Homeland Security (DHS) to verify the
identities of ANP beneficiaries at the border. To ensure consistency, we believe SSA should consider
developing model language for field offices to use when establishing agreements with DHS. Once
implemented, field office personnel should monitor the identity verification process to ensure that DHS
personnel are complying with SSA policies and procedures.
Agency Response: SSA agreed with the recommendation.
Corrective Action: After working with DHS through the Biometric Identity Proofing Workgroup, it was
determined there were disclosure and data exchange issues that could not be resolved. The lead for
the Bio-Metrics Workgroup was the Office of Chief Information Officer, which was dismantled in 2011.




54                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                          Semiannual Report to Congress



DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED BY DISABILITY DETERMINATION
SERVICES AND SUBSEQUENTLY ALLOWED BY ADMINISTRATIVE LAW JUDGES (A-07-09-19083,
8/20/2010)
Results of Review: We identified the four impairments that were most often denied by DDSs in Calendar
Years 2004 through 2006, appealed to the hearing level, and subsequently allowed. These impairments
were Disorders of Back; Osteoarthrosis and Allied Disorders; Diabetes Mellitus; and Disorders of Muscle,
Ligament, and Fascia. Our analysis of cases with these four impairments disclosed:
•	 Claimant age impacted disability determinations.
•	 Determinations of claimants’ ability to work resulted in differences at the DDS and hearing levels.
•	 Claimant representation was more prevalent in cases allowed at the hearing level than in cases
   decided at the DDS level.
•	 Cases were allowed at the hearing level based on a different impairment than that on which the DDS
   made its determination.
•	 States had both DDS denial rates and hearing level allowance rates above the national averages.
•	 ODAR regions, hearing offices, and administrative law judges (ALJ) had wide variations in allowance
   rates.
Recommendation: SSA should consider analyzing variances between the hearing offices and
administrative law judges with high and low allowance rates for the four impairments we analyzed to
determine whether factors are present that support the variances.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA’s Office of Appellate Operations continues to develop a program that will pull
data to track the allowance and denial rates based on specific impairments. The Agency expects to
complete the program by the end of Calendar Year 2013.



Significant Non-Monetary Recommendations From Prior Semiannual
Report to Congress for Which Recent Corrective Action Has Been
Made
CONTROLS FOR ISSUING SOCIAL SECURITY NUMBER PRINTOUTS (A-04-11-11105, 12/13/2011)
Results of Review: Despite some corrective actions SSA took in response to our previous report, we
continue to believe the Agency should strengthen its controls for issuing Social Security number (SSN)
Printouts. In fact, since our December 2007 report, we found an increase in the (1) number of SSN
Printouts SSA issued, (2) volume of numberholders obtaining more than 10 SSN Printouts in a day and
a year, and (3) occurrences of fraud involving SSN Printouts. Additionally, SSA managers still had little
information to monitor the number of SSN Printouts issued and related anomalies.
SSA stated its procedures for issuing SSN Printouts must comply with the intent of the Privacy Act and
Office of Management and Budget (OMB) guidelines—to provide individuals appropriate and timely
access to their SSN information. We acknowledge the importance of SSA’s compliance with Privacy Act
and OMB guidelines. Nevertheless, we are concerned SSA continues to issue a high number of SSN
Printouts with less stringent identity requirements and fewer controls than those for SSN cards.
Finally, SSA field offices located near the United States-Mexico border did not issue a higher number of
SSN Printouts than other field offices.
Recommendation: Establish a limit on the number of SSN Printouts an individual may obtain in a day,
year, and lifetime and require specific management approval for requests that exceed that limit.
Agency Response: SSA agreed with the recommendation.
April 1, 2013 - September 30, 2013                                                                    55

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
Semiannual Report to Congress



Corrective Action: SSA revised its policies for issuance of SSN Printouts. As of June 25, 2013, the Agency
implemented the new policy, see POMS RM 10225. By implementing this policy change, the applicants
for SSN Printouts will be required to submit the same evidence that is needed for a replacement SSN
card. In addition, only one SSN Printout can be issued per day, and SSN Printouts will be subject to the
same yearly and lifetime limits as applicants for replacement SSN cards. Printouts do not count against
the card limits, but once the card limits are met, the applicant must provide evidence of an acceptable
exception reason before he or she can receive an SSN Printout. Requests to exceed card limits must
be approved by a manager. In addition, like applications for replacement cards, SSN Printouts will be
processed through the Social Security Number Application Process.
SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH UNREPORTED REAL PROPERTY (A-02-
09-29025, 6/1/2011)
Results of Review: SSA’s records on real property ownership matched with public property records in
LexisNexis for 298 of the 350 recipients we reviewed. SSA determined that 25 recipients did not own
what appeared to be unreported properties listed in LexisNexis. For the remaining 27 recipients, SSA
determined LexisNexis was accurate and the recipients owned unreported real property. Sixteen of these
27 recipients were improperly paid about $112,000 when the value of their unreported real property
was taken into account. The Agency could not recover approximately half of this because of its rules
of administrative finality. Based on our sample results, we estimated that about 541,580 recipients
misreported real property ownership, and SSA improperly paid 320,940 of these recipients over $2.2
billion. Comparing the costs of using LexisNexis to the benefits gained, we concluded that the use of
LexisNexis was cost effective and would save about $350 million annually.
Recommendation: Expand the use of LexisNexis if the pilot study demonstrates it is cost-beneficial to
do so.
Agency Response: SSA agreed with the recommendation.
Corrective Action: Users were transitioned from LexisNexis Risk Management to Accurint in June 2013.
Field offices selected for the Non-home Real Property study have been collecting data on initial claims
since July 2013. Data will be collected through September 2013, with redeterminations to follow for
about 6 months from November through April 2014. At the conclusion of the study, we will determine
the benefit of using LexisNexis Accurint to identify undisclosed real property in SSI initial claims and
redeterminations.
OFFICE OF DISABILITY ADJUDICATION AND REVIEW HEARING REQUESTS DISMISSALS
(A-07-10-20171, 12/14/10)
Results of Review: We found that there were areas where improvements could be made for dismissing
hearing requests.
•	 For untimely hearing requests, our review disclosed cases where dismissals were not
   (1) appropriate, (2) supported by ODAR requests for claimants’ explanations for untimely filing, (3)
   supported by an ALJ rationale, or (4) processed timely.
•	 For abandonment dismissals, we found cases where the dismissals were issued without the necessary
   attempts to contact claimants documented in the case folders.
•	 For withdrawal dismissals, we found one case where the claimant’s case folder did not contain
   evidence the claimant or the claimant’s representative requested the hearing request be withdrawn.
In addition, our analysis of dismissal rates identified wide variances among ODAR regions, hearing
offices, and ALJs.
Recommendation: Determine whether factors are present that explain variances in dismissal rates
among ODAR’s regions, hearing offices, and ALJs.
Agency Response: SSA agreed with the recommendation.



56                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                        Semiannual Report to Congress



Corrective Action: In an effort to address variances in dismissals, SSA conducted ODAR Continuing
Education Program Quarterly Interactive Video Teletraining on dismissals in January 2013. The Office
of Appellate Operations (OAO) continues to evaluate case processing options that would help improve
consistency in adjudicating requests for review on ALJ dismissals. In addition, OAO conducted a study/
survey on dismissals in April 2013, which focused on cases dismissed for abandonment in February and
March of 2012. The study was based on a national sample of 400 cases, and national variances were
considered. SSA is using the study/survey information to help ensure policy compliance in abandonment
dismissal decisions.




April 1, 2013 - September 30, 2013                                                                 57

                                        BackBack
                                             to Table
                                                 to Tableof Contents
                                                         of Contents
Semiannual Report to Congress




Appendix H: Peer Reviews
OFFICE OF AUDIT
• Our Office of Audit is required to undergo a peer review every three years, in accordance with generally
accepted government auditing standards.
• The final System Review Report related to our last peer review, conducted by the Department of
Veterans Affairs, was issued in August 2012. We received a rating of pass, which means that the review
team concluded that the system of quality control for the audit organization had been suitably designed
and complied with to provide us with reasonable assurance of performing and reporting in conformity
with applicable professional standards in all material respects. The Department of Veterans Affairs
OIG identified no deficiencies that affected the nature of the report. Further, there were no findings or
recommendations as a result of this peer review.
• During FY 2013, we conducted a peer review of the DOL OIG's Office of Audit. We issued our report
on March 15, 2013 and made no recommendations as a result of this peer review.
• There are no outstanding recommendations from prior audit peer reviews completed by us, or from
prior reviews of our organization.


OFFICE OF INVESTIGATIONS
• Our Office of Investigations is required to undergo a peer review every three years to ensure general and
qualitative standards comply with the requirements of the Quality Standards for Investigations adopted
by the CIGIE. The peer review also ascertains whether adequate internal safeguards and management
procedures exist to ensure that the law enforcement powers conferred by the 2002 amendments to
the Inspector General Act are properly exercised pursuant to Section 6(e) of the Inspector General Act
(as amended) and the United States Attorney General Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority.
• During this fiscal year, the Office of Investigations neither underwent nor conducted a peer review.
• There are no outstanding recommendations from prior investigative peer reviews completed by us or
from prior reviews of our organization.




58                                                                       April 1, 2013 - September 30, 2013

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
                                                                           Semiannual Report to Congress




Appendix I: Review of Legislation and Regulations
Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the SSA OIG to review
existing and proposed legislation and regulations relating to SSA’s programs and operations and to
make recommendations concerning their impact on those programs or on the prevention of fraud and
abuse. We accomplish this mission several ways. First, many of our audits and other reports evaluate
SSA’s compliance with existing laws and regulations. When appropriate, we recommend issuing
relevant regulations or seeking appropriate legislative authority, and we provide the status of those
recommendations in our Semiannual Report to Congress. Additionally, we describe in our annual Audit
Work Plan the planned reviews that will address issues related to laws and regulations.
With regard to proposed legislation and regulations, we provide comments on pending or proposed
legislation to SSA’s Office of Legislation and Congressional Affairs, which includes those comments in its
agency response to OMB. In addition, we participate on an SSA working group that reviews legislative
proposals throughout the year. This working group provides feedback on proposals submitted from all
SSA components. The Inspector General is also an active member of the CIGIE Legislation Committee.
In this role, OIG provides input to responses prepared by the Committee to congressional staff on the
impact of proposed legislation, and we meet with congressional staff as needed to discuss legislative
issues.
During this reporting period, we reviewed several legislative proposals to ensure that they adequately
addressed the potential for fraud and abuse in SSA’s programs and operations. In particular, we provided
technical input on H.R. 2720, the Alexis Agin Identity Theft Protection Act of 2013. This legislation is
designed to help prevent identity theft and tax fraud by protecting SSA’s information related to deceased
individuals. It ends the required publication of SSA’s Death Master File. We also provided technical
input to congressional staff on S. 1360, the Improper Payments Agency Cooperation Enhancement Act
of 2013. This legislation amends the Improper Payments Elimination and Recovery Improvement Act
(IPERIA) of 2012, to improve the detection, prevention, and recovery of improper payments to deceased
individuals by the establishment of a National Deaths Registry. Access to the Registry is through
cooperative agreements between the Commissioner of Social Security and Federal agencies as well
as State, local, and tribal governments. We also coordinated a review of legislation proposed by CIGIE
members, providing CIGIE member comments to congressional staff.
In addition, we provided technical input to congressional staff on the proposed language of H.R. 2418,
the Control Unlawful Fugitive Felons Act of 2013. This legislation is designed to address the limitations
on SSA’s Fugitive Felon Program as a result of two class action settlements.
Throughout the Federal Government, improper payments remain a major concern. On May 8, 2013, the IG
testified at a hearing on the New Steps to Strengthen the Integrity of Federal Payments. As Chairman of
the CIGIE Improper Payments Information Act/Guidance Committee, the IG testified from both the CIGIE
and SSA OIG perspective. He testified that Federal agencies and their IGs have worked closely with
OMB and the Treasury to identify and reduce improper payments in recent years. For SSA, this means
it collects and maintains accurate death records included in its Death Master File. SSA OIG and other
OIGs continue to support legislation to establish an agency revolving fund for integrity activities to help
ensure payment accuracy or an expansion of recovery auditing provisions of IPERIA to all Government
funds, not just discretional funds. We continue to support the CIGIE legislative proposal to exempt all
Federal OIGs from complying with the provisions of the Computer Matching and Privacy Protection Act
for projects relating to fraud, waste, and abuse, and we have met with various congressional staff to
provide input on this issue.
We also reviewed and provided comments to OMB on its proposed guidance, Protecting Privacy While
Reducing Improper Payments with the Do Not Pay Initiative, implementing the Do Not Pay Initiative of
Pub. L. 112 – 248, the Improper Payments Elimination and Recovery Act of 2012.




April 1, 2013 - September 30, 2013                                                                      59

                                          BackBack
                                               to Table
                                                   to Tableof Contents
                                                           of Contents
Semiannual Report to Congress



             Glossary of Acronyms
              AGA          Association of Government Accountants
              ALJ          Administrative Law Judge
              AMFED        Allegation Management and Fugitive Enforcement Division
              ANP          Alien Nonpayment Provision
              CAS          Cost Allocation System
              CDI          Cooperative Disability Investigations
              CDR          Continuing Disability Review
              CIGIE        Council of Inspectors General on Integrity and Efficiency
              CMP          Civil Monetary Penalty
              DDS          Disability Determination Services
              DHHS         Department of Health and Human Services
              DHS          Department of Homeland Security
              DI           Disability Insurance
              DOJ          Department of Justice
              DOL          Department of Labor
              EEO          Earnings Enforcement Operation
              ESF          Earnings Suspense File
              FEQ          Foreign Enforcement Questionnaire
              FPS          Federal Protective Service
              FY           Fiscal Year
              IO           Immediate Office
              IRS          Internal Revenue Service
              IT           Information Technology
              NADE         National Association of Disability Examiners
              MBR          Master Beneficiary Record
              MEF          Master Earnings File
              OA           Office of Audit
              OAO          Office of Appellate Operations
              OASDI        Old-Age, Disability and Survivors Insurance
              OBFQM        Office of Budget, Finance, Quality, and Management
              ODAR         Office of Disability Adjudication and Review
              OER          Office of External Relations
              OGC          Office of General Counsel




60                                                                      April 1, 2013 - September 30, 2013

                                         BackBack
                                              to Table
                                                  to Tableof Contents
                                                          of Contents
                                                                          Semiannual Report to Congress




       Glossary of Acronyms (Continued)
        OI             Office of Investigations
        OIG            Office of the Inspector General
        OMB            Office of Management and Budget
                       Office of Quality Assurance and Professional
        OQAPR
                       Responsibility
        OS             Office of Systems
        OTR            On-the-Record
        OTRM           Office of Technology and Resource Management
        PC             Processing Center
        PIR            Post Implementation Review
        POMS           Program Operations Manual System
        SAA            Senior Attorney Advisor
        SSA            Social Security Administration
        SSI            Supplemental Security Insurance
        SSN            Social Security Number
        TAS            Time Allocation System
        VE             Vocational Expert
        WC             Workers’ Compensation




April 1, 2013 - September 30, 2013                                                                  61

                                           BackBack
                                                to Table
                                                    to Tableof Contents
                                                            of Contents
